<html>
<title> - EARLY EDUCATION AND CARE: WHAT IS THE FEDERAL GOVERNMENT'S ROLE?</title>
<body><pre>[Senate Hearing 109-116]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 109-116

    EARLY EDUCATION AND CARE: WHAT IS THE FEDERAL GOVERNMENT'S ROLE?

=======================================================================

                                HEARING

                               BEFORE THE

       SUBCOMMITTEE ON EDUCATION AND EARLY CHILDHOOD DEVELOPMENT

                                 OF THE

                    COMMITTEE ON HEALTH, EDUCATION,
                          LABOR, AND PENSIONS
                          UNITED STATES SENATE

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                                   ON



      EXAMINING THE FEDERAL ROLE TO IMPROVE THE EFFECTIVENESS AND 
COORDINATION OF CHILDHOOD EDUCATION PROGRAMS, INCLUDING THE HEAD START 
  PROGRAM, THE CHILD CARE AND DEVELOPMENT FUND (CCDF), AND INCREASING 
                   FOOD SECURITY AND REDUCING HUNGER

                               __________

                             APRIL 20, 2005

                               __________

 Printed for the use of the Committee on Health, Education, Labor, and 
                                Pensions

                    U.S. GOVERNMENT PRINTING OFFICE
20-853                      WASHINGTON : 2005
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


          COMMITTEE ON HEALTH, EDUCATION, LABOR, AND PENSIONS

                   MICHAEL B. ENZI, Wyoming, Chairman

JUDD GREGG, New Hampshire            EDWARD M. KENNEDY, Massachusetts
BILL FRIST, Tennessee                CHRISTOPHER J. DODD, Connecticut
LAMAR ALEXANDER, Tennessee           TOM HARKIN, Iowa
RICHARD BURR, North Carolina         BARBARA A. MIKULSKI, Maryland
JOHNNY ISAKSON, Georgia              JAMES M. JEFFORDS (I), Vermont
MIKE DeWINE, Ohio                    JEFF BINGAMAN, New Mexico
JOHN ENSIGN, Nevada                  PATTY MURRAY, Washington
ORRIN G. HATCH, Utah                 JACK REED, Rhode Island
JEFF SESSIONS, Alabama               HILLARY RODHAM CLINTON, New York
PAT ROBERTS, Kansas

               Katherine Brunett McGuire, Staff Director

      J. Michael Myers, Minority Staff Director and Chief Counsel

                                 ______

       Subcommittee on Education and Early Childhood Development

                  LAMAR ALEXANDER, Tennessee, Chairman

JUDD GREGG, New Hampshire            CHRISTOPHER J. DODD, Connecticut
RICHARD BURR, North Carolina         TOM HARKIN, Iowa
JOHNNY ISAKSON, Georgia              JAMES M. JEFFORDS (I), Vermont
MIKE DeWINE, Ohio                    JEFF BINGAMAN, New Mexico
JOHN ENSIGN, Nevada                  PATTY MURRAY, Washington
ORRIN G. HATCH, Utah                 JACK REED, Rhode Island
JEFF SESSIONS, Alabama               HILLARY RODHAM CLINTON, New York
MICHAEL B. ENZI, Wyoming (ex         EDWARD M. KENNEDY, Massachusetts 
officio)                             (ex officio)

                   Christine C. Dodd, Staff Director

                 Grace A. Reef, Minority Staff Director

                                  (ii)






                            C O N T E N T S

                               __________

                               STATEMENTS

                       WEDNESDAY, APRIL 20, 2005

                                                                   Page
Alexander, Hon. Lamar, Chairman, Subcommittee on Education and 
  Early Childhood Development, opening statement.................     1
Kennedy, Hon. Edward M., a U.S. Senator from the State of 
  Massachusetts, opening statement...............................     3
Enzi, Hon. Michael B., Chairman, Committee on Health, Education, 
  Labor, and Pensions, opening statement.........................     4
    Prepared statement...........................................     5
Horn, Wade F., Assistant Secretary for Children and Families, 
  U.S. Department of Health and Human Services; Raymond Simon, 
  Assistant Secretary for Elementary and Secondary Education, 
  U.S. Department of Education; and Kate Coler, Deputy Under 
  Secretary for Food, Nutrition, and Consumer Services, U.S. 
  Department of Agriculture......................................     7
    Prepared statements of:
        Wade F. Horn, Ph.D.......................................     9
        Raymond Simon............................................    16
        Kate Coler...............................................    20
Dodd, Hon. Christopher, a U.S. Senator from the State of 
  Connecticut, opening statement.................................    13

                                 (iii)

  

 
    EARLY EDUCATION AND CARE: WHAT IS THE FEDERAL GOVERNMENT'S ROLE?

                              ----------                              


                       WEDNESDAY, APRIL 20, 2005

                                       U.S. Senate,
Subcommittee on Education and Early Childhood Development, 
of the Committee on Health, Education, Labor, and Pensions,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:00 a.m., in 
Room 430, Dirksen Senate Office Building, Hon. Lamar Alexander, 
chairman of the subcommittee, presiding.
    Present: Senators Alexander, Enzi, Dodd, and Kennedy.

                Opening Statement of Chairman Alexander

    Senator Alexander. Good morning. The Education and Early 
Childhood Development Subcommittee will come to order. We 
welcome our witnesses for what ought to be a very interesting 
discussion.
    I want to welcome Senator Kennedy, who is the ranking 
member of the full committee. Senator Dodd, the ranking member 
of the subcommittee, will be here after he makes an opening 
statement at another committee. Between the two of them, they 
have about 16 more years of experience than I do, or something 
like that. It is a pleasure to work with them both.
    This is a subject in which we are all very interested, and 
let me see if I can frame it a little bit and then I will ask 
Senator Kennedy if he would like to make some opening remarks 
and Senator Dodd when he comes.
    The purpose of the hearing is to learn more about the 
effectiveness of the 69 Federal programs that help parents help 
their young children with child care and early education. By 
the end of the hearing, we hope to get an assessment from the 
witnesses from three major Federal departments about how these 
programs are working.
    I hope that this hearing is the beginning of a year-long 
look at Federal programs for early childhood education and 
care. I have talked with other members of the committee about 
this topic. We welcome our chairman of the full committee, 
Senator Enzi of Wyoming. It is a top priority with him, with 
Senator Kennedy, and with Senator Dodd. I have talked with 
Secretary Spellings and Leavitt and Johanns about it and they 
have talked with each other. We see this as an unusual 
opportunity for us to take stock of what we have without 
necessarily knowing before we start what our conclusion will 
be, to see where we should go from here, and then maybe we can 
find a consensus about any changes that we might need to make.
    We each have our personal perspectives on early childhood 
education. Let me tell you mine. I grew up in the mountains of 
East Tennessee and attended my mother's nursery school and 
kindergarten program, which was in a converted garage in the 
backyard of our house. It was the only preschool education 
program in our county. She had 25 3- and 4-year-olds in the 
morning and 25 5-year-olds in the afternoon.
    And even then, more than a half-century ago, she was able 
to identify in those young children gifts that they had, 
problems that they had, diseases that they had that their 
parents didn't know about. She was convinced of the importance 
of early childhood education. She noticed that when people 
moved into Maryville, our little town, that the first thing 
they did was try to enroll their children in what I would call 
Mrs. Alexander's Institution of Lower Learning
    [Laughter.]
    Then they would go look for a house, because even then, 
parents knew the importance of early childhood education.
    Now, let us jump ahead a half-century and think how much 
more we have learned about that since then. Specifically, about 
how a child's brain doubles between birth and the age of 3. 
This has been reflected by the interests of governments. Forty 
years ago, the Head Start program began as a pioneering 
program, but today, it is only $6 or $7 billion of $18 to $21 
billion that the Federal Government spends through those 69 
programs for children under 6, and that doesn't even count 
Medicaid and other programs. So the Federal Government has 
noticed the importance of early childhood for those families 
especially who can't afford to provide it for their own 
children.
    And then States have recognized it. Forty States, I 
believe, have some form of preschool education program, and 
many of our Head Start centers are now affiliated with school 
districts. So we have a lot going on in this area. We can be 
almost certain that it is not being as well and effectively 
spent as it might be if we would take a look at it, just 
because of the way the world changes.
    So we are really free to look at all of these programs, the 
Federal ones, and then as we get on into other roundtables and 
hearings, we will look at the State programs and the local 
programs and determine, maybe there are some programs that are 
unneeded. Maybe there is some money that is being spent one way 
that can be spent another way. Maybe we need to spend 
additional funds in a different way. Maybe we can learn 
something from different programs.
    For example, we might learn from the Department of 
Agriculture something about Food Stamp money, because Food 
Stamp money goes to parents. Parents then have a variety of 
choices about where they can spend that Food Stamp money, at 
different kinds of institutions. We also do that in our higher 
education model. We don't do it very much in elementary and 
secondary education.
    Title I dollars, which are spent for elementary and 
secondary education, might be better spent sometimes in 
preschool programs. They may be spent that way, and maybe we 
could encourage that. I was just at a meeting of chief State 
school officers and the suggestion was made to me that perhaps 
we could try to implement the President's suggestion that we 
get the States more involved with Head Start without damaging 
one of the great strengths of Head Start, which is the autonomy 
and independence. We might give training grants to State 
Departments of Education who are working with early childhood 
programs, including Head Start, and for the next 3 or 4 years, 
let us see what we can learn from States creating model 
programs and model training programs as they seek to train 
preschool teachers and teachers in the elementary grades.
    So I guess it is fair to say everything is on the table. 
Everybody is interested. We have got an administration with 
three Secretaries that are talking to each other about it. We 
have got a committee with people on both sides of the aisle who 
put a high priority on it. We have a GAO report from the year 
2000 that took a look at these programs. Senator Voinovich did 
a lot of work on that study. We have asked for an updating of 
that report. We will see what we can learn from the Federal 
witnesses at this hearing and then we will develop an agenda 
after talking with the other Senators about how to go from 
here. Hopefully, Mr. Chairman and Mr. Ranking Member, by the 
end of the year, or shortly thereafter, we will come back with 
some suggestions about how we can do the best possible job of 
spending Federal dollars to help parents who have very young 
children who need preschool education and who need child care.
    Senator Kennedy?

                  Opening Statement of Senator Kennedy

    Senator Kennedy. Thank you very much. I want to thank 
Chairman Alexander, for holding these hearings and for his 
strong commitment in this area. I see Chairman Enzi, as well, 
the chairman of the full committee. This bodes well for this 
whole endeavor that we are involved in and I thank him and 
welcome all of our witnesses that are here, some individuals 
who are good enough to help us on a variety of different public 
policy issues involving children and education. We are very 
fortunate to hear from them.
    Early childhood education deserves the same high priority 
we now give to elementary, secondary education, and college 
education. It is essential to children's later success in 
school and in life. It is indispensible in minimizing learning 
disabilities and emotional disorders and it is effective in 
reducing crime and keeping our communities safe. A number of 
Federal programs already support children in their early years 
and encourage their social, emotional, and intellectual 
development, but too often, they fail to do the job.
    What we do in children's earliest years profoundly affects 
the rest of their lives. Extensive scientific research makes 
this point clear, from the landmark Neurons to Neighborhood 
report, to the decades-old Perry Preschool study. If we fail to 
meet children's developmental needs starting at birth, we 
shortchange our children and our society as well. All of this 
is an area that we haven't given focus and attention to and 
offers enormous possibilities.
    If you look through the results of the Perry Preschool 
program, the Adledarian program, and the Child-Parent Centers 
program in Chicago, all of these indicate the benefits of early 
intervention and the impact it has had on children and 
children's development. It has really been enormously 
important.
    So the research confirms what we have known all along, that 
every child is born ready to learn. The question is, what 
opportunities will children have to reach their full potential?
    Head Start gives low-income children immunizations, 
develops their vocabulary and reading skills, and provides 
early knowledge of numbers. Title I preschool programs give 
children the building blocks they need to do well in their 
kindergarten classes and elementary school years. The school 
breakfast and lunch programs make it possible for nearly 30 
million low-income children to receive nutritious meals every 
day at school. Each of these programs has a distinct goal and 
provides a distinct service. Each is a lifeline of support for 
children from low-income families.
    Two overall factors, quality and access, are critical to 
achieving our goals. The quality of children's experience 
determines whether they develop well and have the skills to 
enter school ready to learn, and the successful early 
development depends heavily on the relationships they can build 
with those around them, regardless of the setting of the 
program that they are in. That is why it is critical for us to 
focus on improving the quality of all of our early childhood 
education programs, and we owe it to all the children to be 
sure that their basic development needs are met, no matter 
where they can get the care.
    Our efforts in Congress will also depend on guaranteeing 
access to these essential services. Budget cuts that compromise 
these goals are unacceptable. Head Start, the Nation's hallmark 
commitment to children, serves fewer than six out of ten 
children who are eligible. Early Head Start, for the youngest 
children, serves only 3 percent of the children that are 
eligible.
    Better interagency cooperation and coordination are 
obviously important here, and we are going to hear more about 
that this morning. They must include State and local efforts. 
But coordination efforts that expand services for some should 
not come at the expense of curtailing them for others.
    We are very fortunate to have witnesses here this morning 
that can really help our committee and all of us understand 
this issue better. I commend the chairman and look forward to 
the testimony.
    Senator Alexander. Thank you, Senator Kennedy.
    Chairman Enzi?

                   Opening Statement of Chairman Enzi

    The Chairman. Thank you, Mr. Chairman. I really appreciate 
you holding these hearings. I would ask that my full statement 
be in the record. I am glad that you are holding these 
hearings. I had no idea that we had as many programs until I 
got this chairmanship, and now I am very interested in what 
each program does, how effectively they do what they say they 
will do, what kinds of duplication we have so that we can best 
allocate resources to the most effective programs and make the 
ones that aren't as effective more effective.
    I think there is a lot of good that can come out of both 
the hearings and the work that we do, so I thank you for taking 
the initiative on this and getting it done. Thank you.
    Senator Alexander. Thank you, Mr. Chairman. Your statement 
will be included.
    [The prepared statement of Chairman Enzi follows:]

                 Prepared Statement of Michael B. Enzi

    I want to thank Senator Alexander for calling this 
subcommittee hearing to address the role of the Federal 
Government in our early childhood education programs. I also 
appreciate our witnesses taking the time out of their very busy 
schedules to be with us.
    Today's hearing will give us a chance to focus on early 
education programs with two questions in mind. First of all, 
are early education programs effective and do they play an 
important role in our goal of providing all our citizens with 
access to a lifetime of learning? Secondly, if these programs 
are effective, how can we best use our resources to make them 
available to more of our children, especially in rural areas 
where the delivery of these services has been hampered by 
problems with geography, personnel and resources.
    Earlier this week a report was released that cited a study 
that started 40 years ago. It took a close look at the economic 
impact of good preschooling on children determined to be at 
risk. Although limited in scope, the study found that the group 
that received a quality education was more likely to complete 
school, they had better jobs, they were making higher incomes, 
they were more likely to own their own homes, and they were 
less likely to be on welfare or to have turned to crime.
    Those are the kind of statistics that get our attention--
especially the estimate that every dollar invested in early 
education programs saved taxpayers as much as $13 later on in 
public education, criminal justice and welfare costs.
    We shouldn't be surprised. There's an old saying, it's not 
where you start, it's where you finish. In today's world, with 
today's educational opportunities, we are finding the opposite 
is true. More often than not where you start determines where 
you finish and those who get off to a good start have 
dramatically better finishes than those who do not get that 
same break at the beginning.
    Fortunately, the importance of a good education is a lesson 
that was learned a long time ago and the Federal Government has 
been doing its best over the past years to increase access to 
these vital programs. From a handful of programs that were 
begun during the War on Poverty in the 1960's that commitment 
has grown to more than 60 such programs around the country. 
Many of these programs serve similar populations of young 
children. Programs like Head Start, the Child Care Development 
Block Grant, and many others authorized through No Child Left 
Behind, the Individuals with Disabilities Education Act, and 
numerous others, are providing Federal support for States or 
local communities to provide services for children.
    Congress has an interest in ensuring that these programs 
are working together, so that our children will receive the 
services they need and are eligible to receive. We should also 
be looking at ways we can improve the collaboration between 
Federal, State, and local programs, so more children can begin 
the learning process early, and enter school ready and fully 
prepared to learn.
    Many of these programs appear to overlap, and many States 
and local communities are struggling with running similar 
programs with different requirements. Several of these programs 
are operated by different Federal Departments and the funds are 
delivered to different State agencies. In some cases, Federal 
funds are provided directly to local grantees without any State 
involvement.
    This inconsistent approach to early childhood education has 
created a number of challenges that may be preventing States 
and local agencies from helping students more effectively. The 
Federal Government is asking different entities receiving 
Federal funds to operate each of these programs slightly 
differently, frequently without any form of collaborative 
arrangement.
    It is my hope that today's hearing will help provide a 
foundation for stronger collaboration between these programs, 
so our children can get the best start possible and Federal 
dollars can be used most effectively. I look forward to today's 
testimony and the discussion that will follow.
    Senator Alexander. I would like to introduce all three 
witnesses and then invite each of you to take what you need to 
summarize your statements. Maybe you could take 6 to 8 minutes 
to summarize your statements, or less if you wanted, and then 
that would give us more of a chance to have a conversation with 
you, but take the time you need.
    I will give brief introductions. Kate Coler is Deputy Under 
Secretary for Food, Nutrition, and Consumer Services. She was 
appointed that at the end of 2003. She works to make the 
Nation's agricultural abundance to end hunger and improve 
health in the United States. She represents the United States 
Department of Agriculture, where she first worked as Deputy 
Administrator of the Food Stamp Program.
    Ray Simon is Assistant Secretary for the Office of 
Elementary and Secondary Education. He used to be the 
superintendent in Arkansas and he was a school superintendent 
himself. He was called in in the middle of the implementation 
of No Child Left Behind and given various missionary 
assignments out across the country and has done a remarkably 
good job, according to the State school officers with whom I 
meet. We appreciate his service and we welcome him here.
    Dr. Wade Horn is almost a member of this committee, he is 
here so often. We are delighted to have him again. He is 
Assistant Secretary for Children and Families in the 
Administration for Children and Families of the U.S. Department 
of Health and Human Services. He was President of the National 
Fatherhood Initiative and has had a distinguished career.
    We welcome all three of you, and I would like to say again, 
although I am sure you will say it, that in each case, I have 
talked with the Secretary of your Department and each has told 
me of how interested they are and what a priority they put on 
this initiative. So we are here, as they say in Washington, to 
help, to learn what we need to know and find out what changes 
we need to make and see if any of it requires legislation.
    Dr. Horn, I would like to start with you, and then go to 
Mr. Simon, and then Ms. Coler.

 STATEMENTS OF WADE F. HORN, ASSISTANT SECRETARY FOR CHILDREN 
  AND FAMILIES, U.S. DEPARTMENT OF HEALTH AND HUMAN SERVICES; 
RAYMOND SIMON, ASSISTANT SECRETARY FOR ELEMENTARY AND SECONDARY 
EDUCATION, U.S. DEPARTMENT OF EDUCATION; AND KATE COLER, DEPUTY 
  UNDER SECRETARY FOR FOOD, NUTRITION, AND CONSUMER SERVICES, 
                 U.S. DEPARTMENT OF AGRICULTURE

    Mr. Horn. Thank you very much, Mr. Chairman and members of 
the subcommittee. I am very pleased to have this opportunity to 
appear before you today to discuss the programs in the 
Administration for Children and Families that focus on early 
childhood education, particularly the Head Start program and 
our child care programs.
    The administration is committed to helping to ensure that 
children enter school ready to learn and looks forward to 
working with the Congress and particularly with this committee 
to improve the effectiveness and coordination of all programs 
that support the healthy development and school readiness of 
our Nation's children.
    With an appropriation of nearly $7 billion, Head Start's 
mission is to promote school readiness by enhancing the social 
and cognitive development of low-income children. This year, 
the program will serve nearly 910,000 children in nearly 50,000 
classrooms located across the country.
    Additionally, through the Child Care and Development Fund, 
we provide $4.8 billion to States, territories, and tribes to 
subsidize child care for low-income working parents and to 
improve the quality of care for all families that use child 
care. When TANF funds are considered as well as other State and 
Federal funding sources, over $11 billion currently is 
available for child care and related services for children. 
This funding will provide child care assistance to an estimated 
2.2 million children this year.
    Combined, Head Start services and child care assistance 
provided through the Child Care Development Fund offer an 
enormous opportunity to influence the healthy development and 
school readiness of low-income children, and success in school 
is a strong predictor of success in life, as reflected in lower 
delinquency rates, less teen pregnancy, higher incomes, fewer 
health issues, less suicide, and so forth.
    To help States make informed early care and education 
policy decisions, we are equipping them with relevant research 
findings about effective practices. Research into child 
development, with its recent focus on how children develop 
early literacy skills, gives us an increasingly clearer picture 
of what knowledge and skills children need to attain in the 
preschool years in order to be successful in school and in 
life.
    Many of our research and evaluation efforts are coordinated 
with others in HHS and also with the Department of Education 
and the Department of Agriculture. For example, the Interagency 
School Readiness Consortium, a multimillion-dollar 
collaborative program between HHS and the Department of 
Education, supports research on the effectiveness of early 
childhood curricula, programs, and interventions in promoting 
the range of cognitive, social, and behavioral skills necessary 
for a child's success when turning to school.
    I believe that we all agree that Head Start makes positive 
contributions to the lives of tens of thousands of children and 
families. But if the program is to achieve its full potential, 
we must better integrate new research findings about early 
childhood learning into the program.
    The same holds true for child care services. Key to the 
administration's efforts to focus on an integrated and 
coordinated approach to early childhood learning is the 
President's Good Start, Grow Smart early childhood initiative 
first announced in 2002. The initiative contains three key 
elements related to partnering with States to improve early 
learning.
    First, research-based early learning guidelines in each 
State that describe what it means to be kindergarten-ready, no 
matter what care setting a child is coming from.
    Second, Statewide professional development plans linked to 
the early learning guidelines for educating and training child 
care and preschool teachers and administrators.
    And third, coordination across major early childhood 
programs and funding streams.
    To promote Good Start, Grow Smart goals, we have created 
strategic partnerships with States to improve early childhood 
programs through a significant infusion of guidance, training, 
and technical assistance. Within the Head Start program, we 
implemented an intensive national teacher training program in 
early literacy. Within the child care program, States have been 
encouraged to include Good Start, Grow Smart objectives in 
their Child Care Development Fund State plans, and we have 
provided technical assistance and training for States, tribes, 
and territories to assist in this effort. States have embraced 
the Good Start, Grow Smart goals and have made tremendous 
progress.
    Further, an interagency Good Start, Grow Smart work group 
representing early childhood programs at HHS and the Department 
of Education coordinates Good Start, Grow Smart activities 
across the two Departments and works together to achieve school 
readiness goals for young children. This work group is focused 
on creating and maintaining a shared vision for early childhood 
education at the Federal level and with State and local 
constituents.
    In addition, since 2002, a series of regionally-based 
meetings have been conducted with State stakeholders from child 
care, Head Start, and education to develop a strategic plan for 
implementing Good Start, Grow Smart in their States. ACF's 
child care and Head Start staff have partnered with the 
Department of Education to provide national training for 
States, territories, and tribes, including a forum on child 
care and early literacy and two State roundtables on early 
learning guidelines and professional development.
    We will continue our efforts to forge significant 
partnerships on behalf of children and families to maximize the 
number of children served and the positive impacts provided by 
Head Start and Child Care Development Fund funded child care. 
To help us accomplish greater coordination among all early 
childhood players, we look forward to working with the Congress 
on several fronts.
    First, we are asking Congress to include in the 
reauthorization of the Head Start Act a provision that will 
allow interested States to include Head Start in their 
preschool plans. Under the proposal, States are offered the 
opportunity to coordinate preschool programs with Head Start 
programs in their States in exchange for meeting certain 
accountability requirements.
    Moreover, to improve coordination, the President's welfare 
reform reauthorization plan proposes allowing States to 
integrate funding and program rules across a broad range of 
State welfare and workforce programs, including CCDF and other 
early childhood programs. States can request under this waiver 
authority the authority to better integrated Federal programs, 
including program eligibility and reporting requirements. The 
goal of each of these two legislative initiatives is to provide 
maximum flexibility to States in order to allow better 
coordination across program lines.
    I appreciate your strong interest and ongoing commitment to 
strengthening coordination across early childhood programs and 
to improve the quality, effectiveness, and coordination of 
services, and in turn the care and education of the Nation's 
low-income preschool children. Working together, I am sure that 
we can make this vision a reality. Thank you very much.
    Senator Alexander. Thank you very much, Dr. Horn.
    [The prepared statement of Mr. Horn follows:]

               Prepared Statement of Wade F. Horn, Ph.D.

    Mr. Chairman and members of the subcommittee, I am pleased to have 
this opportunity to appear before you today to discuss programs in the 
Administration for Children and Families that primarily focus on early 
childhood education and care of children under 6--the Head Start and 
child care programs. The administration is committed to helping to 
ensure that children enter school ready to learn and looks forward to 
working with the Congress to improve the effectiveness and coordination 
of all programs that support the healthy development and school 
readiness of our Nation's young children.
    With an appropriation of nearly $7 billion, Head Start's mission is 
to promote school readiness by enhancing the social and cognitive 
development of low-income children. Some 1,600 Head Start grantees 
throughout the country strive to fulfill this mission through the 
provision of comprehensive education, child development, health, and 
social services to enrolled children and their families. This year the 
program will serve nearly 910,000 children in nearly 50,000 classrooms 
located across the country.
    In addition to the Head Start program, the Administration for 
Children and Families administers the Child Care and Development Fund 
(CCDF). Through CCDF, we provide $4.8 billion in funds to States, 
Territories and Tribes to subsidize child care for low-income working 
parents and improve the quality of care for all families that use child 
care. In addition, States have the flexibility to use TANF funds for 
child care both by transferring up to 30 percent of TANF funds to CCDF, 
and by spending additional TANF money directly for child care. When 
TANF funds are considered, as well as other State and Federal funding 
sources, over $11 billion currently is available for child care and 
related services for children. This funding will provide child care 
assistance to an estimated 2.2 million children this year. While 
available for children under age 13, most child care funds are used for 
preschoolers, infants and toddlers.
    Combined, the Head Start program and child care assistance provided 
through the CCDF offer an enormous opportunity to influence the healthy 
development and school readiness of low-income children. I would like 
to share with you the steps we have taken to improve the quality and 
effectiveness of these programs, including our efforts to integrate and 
coordinate our efforts within HHS and with other agencies with related 
goals. I would like to begin by discussing the research that is guiding 
our efforts.

Research on Early Childhood Programs

    The bottom line for the President in early childhood learning is 
school readiness--improving the learning experiences and strengthening 
the focus on accountability for outcomes from those experiences. 
Research tells us a great deal about the skills and knowledge children 
need to be successful in school. And success in school is a strong 
predicator of success in life, as reflected in lower delinquency rates, 
less teen pregnancy, higher incomes, fewer health issues, less suicide, 
and so forth.
    To help States make informed early care and education policy 
decisions, we are equipping them with relevant research findings about 
effective practices. Research into child development, with a recent 
focus on early literacy skills, gives us a progressively clearer 
picture of what knowledge and skills children need in the preschool 
years and predict later school success. For instance, we know that 
children need exposure to language and a variety of vocabulary words, 
mainly through meaningful conversations and reading with adults. We 
also know that children need exposure to the sounds and letters that 
are the basic building blocks of language. Equally important, they need 
well-developed social and emotional skills that allow them to 
participate in group activities and have positive interactions with 
adults and peers. We also know that the knowledge and skills that help 
children prepare for kindergarten can be nurtured in a variety of 
settings, including Head Start programs, preschools, and home-based 
child care providers.
    The Head Start Family and Child Experiences Survey (FACES) is at 
the center of our research on the quality and effects of Head Start. 
FACES, an ongoing longitudinal study of Head Start programs, drawing on 
a nationally stratified random sample of between 2,400 and 3,200 
children, provides in-depth information on such areas as child 
outcomes, family involvement, and key aspects of program quality and 
teaching practices.
    FACES data have been collected for children entering Head Start in 
1997, 2000, and 2003. These data show that children enter Head Start 
with levels of academic skills and knowledge far below national norms. 
Although children demonstrate progress in early literacy and social 
skills, their overall performance levels when they leave Head Start 
still remain below national norms of school readiness.
    Research on Early Head Start programs demonstrated that children in 
Early Head Start functioned significantly better than a randomly 
assigned control group in cognitive and language development and their 
parents report they were more likely to read to them regularly. 
However, like older children in Head Start, children in Early Head 
Start leave the program still lagging behind their more advantaged 
peers in some areas of development.
    Another important element of our research agenda is the Head Start 
Impact Study, now underway. It is the first large-scale, nationally 
representative study of Head Start using a randomized control group 
research design. This study will compare outcomes for Head Start 
children with what they would have been in the absence of the program, 
and will show how impacts differ among children, families, and programs 
with different characteristics. We hope to publish the first findings 
from this study shortly.
    In addition, we are funding several projects that are testing the 
effectiveness of innovations and improvements in Head Start, Early Head 
Start and related services for young children. Through partnerships 
among local Head Start programs and universities and other research 
organizations, we are sponsoring the development and testing of 
cutting-edge approaches to literacy, children's approaches to learning, 
measurement of children's development, and the use of assessment to 
enhance teaching.
    We also have implemented a National Reporting System (NRS) to 
collect child outcome data from every local Head Start program. This 
reporting system was launched in the fall of 2003 when approximately 
436,000 4- and 5-year-old children received a common standardized 
assessment of a limited set of key school readiness indicators. The 
participation rate was greater than 99 percent of all Head Start 
programs and families in this largest-ever assessment of young 
children. Each local Head Start program that participated received a 
report on the average levels of performance of both English and 
Spanish-speaking children on each of the four sections of the 
assessment: language comprehension, vocabulary, letters of the alphabet 
and early mathematics skills. The reports allowed programs to compare 
their results to national averages and to results for agencies with 
similar characteristics. Programs will use the data from the NRS to 
improve the delivery of services in those areas in which the NRS 
suggests improvement is needed. We will assist them in this effort.
    With respect to child care, we also are funding a comprehensive 
research and evaluation agenda that focuses on: the effectiveness of 
strategies to improve children's early learning; the impact of 
professional development efforts in changing caregiver skills and 
practice (including coordination of training efforts across early care 
and education systems); and the impact of partnerships and 
collaborations among Head Start, child care, and pre-kindergarten in 
promoting child, provider, and family outcomes. We launched a 4-year, 
multi-site study of alternative approaches that show promise for 
improving the knowledge, skills, and performance of child care 
providers across the range of care settings. This research will help 
States make informed decisions about how to use their CCDF quality 
improvement dollars to support children's early learning.
    Many of our research and evaluation efforts are coordinated with 
others in HHS and the Department of Education. For example, we are 
supporting an enhanced analysis of early learning indicators in the 
National Household Education Survey. Further, to ensure that 
policymakers and administrators have easy access to key research 
findings, a Child Care and Early Education Research Connections archive 
was launched a year ago. Research Connections is an online, interactive 
database of research, information, and data sets on topics related to 
early care and education.
    In addition, the Interagency School Readiness Consortium, a multi-
million dollar collaborative program between HHS and the Department of 
Education, supports research on the effectiveness of early childhood 
curricula, programs, and interventions in promoting the range of 
cognitive, social, and behavioral skills necessary for the child's 
successful entry into school. Eight research teams are rigorously 
evaluating cutting edge early childhood intervention implementation in 
public settings--including Head Start, child care, State pre-
kindergarten and blended programs.
    Further, in partnership with the National Institute of Health (NIH) 
National Institute for Child Health and Development (NICHD), we are 
creating additional measures that may be used to replace or to extend 
the current measures with the National Reporting System. With its 
investment of $3 million annually in Head Start Research, Development 
and Evaluation funds during fiscal year 2005 through fiscal year 2009, 
the work governed by the ACF and NICHD partnership will support the 
administration's commitment to our Nation's most vulnerable children 
who remain at risk for not achieving success in school.

Efforts to Improve Head Start and Child Care

    I believe that we all would agree that Head Start makes positive 
contributions to the lives of thousands of children and families. But 
if the program is to achieve its full potential, we must integrate new 
research findings about early childhood learning into the program. The 
same holds true for child care services.
    Key to the administration's efforts to focus on an integrated and 
coordinated approach to early childhood learning, is the President's 
Good Start, Grow Smart Early Childhood Initiative announced in 2002. 
The President's Good Start, Grow Smart initiative provides a clear 
charge not only to Head Start but to the entire early childhood 
education field, including child care programs. The initiative contains 
three key elements related to partnering with States to improve early 
learning: research-based early learning guidelines in each State that 
describe what it means to be kindergarten ready, no matter what care 
setting a child is coming from; statewide professional development 
plans, linked to the early learning guidelines, for educating and 
training child care and preschool teachers and administrators; and 
coordination across major early childhood programs and funding streams.
    Good Start, Grow Smart encourages program coordination across early 
learning efforts, particularly among four key programs--CCDF, Head 
Start, public pre-kindergarten programs, and Temporary Assistance for 
Needy Families (TANF). Through joint planning and information sharing, 
we are working together to ensure that State Good Start, Grow Smart 
partnership efforts are coordinated with other related State 
initiatives, such as the State Early Childhood Comprehensive Systems 
grants funded by the Maternal and Child Health Bureau, our sister 
agency at HHS. These grants are helping States work across programs to 
develop and implement collaborations that support families and 
communities to raise children that are healthy and ready to learn.
    Further, an Interagency Good Start, Grow Smart workgroup 
representing early childhood programs at HHS and the Department of 
Education coordinates Good Start, Grow Smart activities and works 
together to achieve school readiness goals for young children. This 
workgroup is focused on creating and maintaining a shared vision for 
early childhood education at the Federal level and with State and local 
constituents.
    We also are paying particular attention to the needs of children 
with disabilities. For example, this summer ACF's child care, Head 
Start and developmental disabilities staff along with staff from the 
Department of Education will be co-sponsoring the National Early 
Childhood Inclusion Institute to develop better collaborative 
relationships and cross-agency systems to support early childhood 
inclusion for children with special needs.
    To promote Good Start, Grow Smart goals, we have created strategic 
partnerships with States to improve early childhood programs through a 
significant infusion of guidance, training and technical assistance. 
Within the Head Start program, we implemented an intensive national 
teacher training program in early literacy. Project STEP, Head Start's 
Summer Teacher Education Program, provided training to all of the 
nearly 50,000 Head Start teachers in early literacy teaching 
techniques. Project STEP has enhanced the effectiveness of Head Start 
teachers by providing intensive teacher training on strategies to 
foster children's progress in specific indicators of early language and 
pre-reading skills, including phonological awareness, vocabulary, print 
and book awareness, letter knowledge, and early writing.
    Within the child care program, States have been encouraged to 
include Good Start, Grow Smart objectives in their CCDF State plan and 
we have provided technical assistance and training for States, Tribes, 
and Territories to assist in this effort.
    States have embraced the Good Start, Grow Smart goals and made 
tremendous progress. Every State successfully submitted plans for Good 
Start, Grow Smart only 1 year after its launch. Many States are engaged 
in embedding the early learning guidelines in expanded professional 
development systems. All States have created partnerships with key 
early care and education programs in their States and are coordinating 
with these stakeholders in the establishment of their professional 
development systems.
    Since 2002, a series of regionally-based meetings have been 
conducted with State stakeholders from child care, Head Start and 
education to develop a strategic plan for implementing Good Start, Grow 
Smart in their States. ACF's child care and Head Start staff have 
partnered with Department of Education to provide national training for 
States, Territories, and Tribes, including a Forum on Child Care and 
Early Literacy and two State Roundtables on early learning guidelines 
and professional development. We also have provided individualized 
technical assistance for many States, including onsite consultation.
    States are taking the initiative to advance coordination efforts as 
well. For example, Ohio recently launched the Early Learning Initiative 
where programs in Ohio integrate Head Start, Child Care and public pre-
kindergarten into a program with the same standards and requirements. 
ACF is providing funds to support Ohio's efforts to evaluate whether 
and how partnerships between programs improve the quality of education 
that children receive. This project will study observed quality and 
children's school readiness in child care-Head Start partnerships in 
randomly-selected child care center classrooms and family child care 
homes, and examine whether, and under what conditions, these 
partnerships are related to observed quality and the school readiness 
of children.

Next Steps

    We will continue these efforts to forge significant partnerships on 
behalf of children and families to maximize the number of children 
served and the positive impacts provided by these programs. 
Coordination is essential at the Federal, State and local levels. 
Nobody benefits by a fragmented approach to meeting pre-school 
children's needs and, working together, we can be greater than the sum 
of our parts. Although many States have demonstrated significant 
interest in, and commitment to, building strong early childhood systems 
in recent years, no State has a comprehensive system of early care and 
education that makes high quality services available to all low-income 
families who want them for their children.
    To help us accomplish greater coordination among all early 
childhood players, we look forwarding to working with the Congress on 
several fronts. First, to strengthen the Head Start program, improve 
services to low-income children, and promote the coordination and 
integration of comprehensive early care and education services, we are 
asking Congress to include in the reauthorization of the Head Start Act 
a provision that will allow interested States to include Head Start in 
their preschool plans. Under the proposal, States are offered the 
opportunity to coordinate preschool programs with Head Start programs 
in exchange for meeting certain accountability requirements.
    Moreover, to improve coordination, the President's welfare reform 
reauthorization plan proposes allowing States to integrate funding and 
program rules across a broad range of State welfare and workforce 
programs, including CCDF and other early childhood programs. States can 
request demonstration authority to integrate aspects of Federal 
programs, including program eligibility and reporting requirements. The 
goal of each of these legislative initiatives is to provide maximum 
flexibility in order to allow coordination across program lines.

Conclusion

    I appreciate your strong interest and ongoing commitment to 
strengthening coordination across early childhood programs to improve 
the quality, effectiveness and coordination of services and in turn, 
the care and education of the Nation's low-income preschool children. 
Working together we can make this vision a reality.

    Senator Alexander. We welcome Senator Chris Dodd of 
Connecticut, who is the ranking member on this subcommittee, 
who has taken it upon himself in the last few years to try to 
personally populate the preschool education programs of the 
country with two young children.
    [Laughter.]
    Welcome, Senator Dodd. You are welcome to make opening 
statements now or at a later time.

                   Opening Statement of Senator Dodd

    Senator Dodd. Thank you, Mr. Chairman. And if I doze off, I 
want you to know it has nothing to do with the quality of the 
testimony and your leadership on this committee. But when you 
are up at 3:00 and 4:00 and 5:00 in the morning, it----
    Senator Kennedy. That is your wife, Chris, not you.
    [Laughter.]
    Senator Dodd. Jackie is not listening right now.
    [Laughter.]
    Well, thank you, Mr. Chairman, and let me thank you 
immensely for holding these hearings and for your interest in 
the subject matter as well as your interest on the issues 
before us. Just a few comments, if I could, and I thank our 
witnesses, as well, here for their testimony.
    I certainly agree with the chairman and others who have 
spoken that there are numerous programs, obviously, that are 
geared toward children, from birth to age 5, that we should 
have a clear understanding of what these goals are so that we 
have as much cooperation as we possibly can have. I certainly 
believe that additional efforts to coordinate between Federal 
and State programs are worthwhile and we ought to examine how 
we can best promote coordination.
    I don't want to overstate the issue, though, and that is my 
concern, that as important as coordination is, and we ought to 
examine it, but the underlying problem is that we are 
underserving populations in this country that really need 
additional attention. Only half of eligible children who could 
participate in Head Start are actually participating today. 
About three percent of eligible infants and toddlers 
participate in Early Head Start in our country. Only one out of 
every seven eligible children receives child care assistance.
    Coordination could make a difference in these areas, but I 
don't want to overstate the case, and that would be my worry 
here, that we have things we need to do where coordination 
could play a role but coordination alone is not the answer. At 
some point, we need to talk about the investment as a nation 
that we are willing to make and whether we really want to make 
these kinds of commitments on behalf of the most vulnerable 
children in our country.
    We know that quality child care, for instance, can make a 
difference, particularly in the outcomes of poor children, yet 
State policies based on insufficient resources have led to 
subsidy rates far below the going rates for child care in many 
communities, reduced income eligibility for assistance, and 
increased parent co-pays. All of these policies have shut the 
door of quality child care to many, many low-income families 
across our country.
    We could fully fund Head Start. We could make all Head 
Start programs full-day programs instead of mostly part-day 
programs. We could provide additional child care funds to Head 
Start centers to offer wrap-around care so that working parents 
can have their children participate in Head Start without 
worrying about who will watch their children before the program 
begins and after it ends.
    CBO has estimated, of course, that this would cost an 
additional $500 million. It is not inexpensive to do this, 
although I would make a case that those moneys could be well 
spent in terms of seeing children get a proper beginning and a 
proper start.
    So I think we all share the common goals. We all want our 
children to start school ready to learn and we want to offer 
preschool programs to all children, but particularly to poor 
kids who often start kindergarten way behind their wealthier 
counterparts, and there is no question about that whatsoever. 
So we want to make sure that all children have the building 
blocks in place that will make them successful in elementary 
school, and we have got a lot of work to do to make that 
happen.
    Coordination is certainly an issue, and I support the 
chairman's examination of those issues. But I think we also 
need to understand the underlying concerns here that exist 
today with a lack of resources committed to some of these very 
well-tested, good programs that are underserving significant 
parts of our population that deserve more help.
    So thank you, Mr. Chairman, very much. I look forward to 
the witnesses.
    Senator Alexander. Thank you, Senator Dodd.
    Mr. Simon?
    Mr. Simon. Thank you, Mr. Chairman. I, too, look forward to 
continued dialogue on this very important issue.
    President Bush has long recognized the importance of 
education during a child's earliest years. A signature program 
in that effort is Early Reading First, which draws on 
scientifically-based research to enhance pre-reading skills and 
improved skill readiness for children from low-income families.
    Mr. Chairman, you may know that Tennessee has three Early 
Reading First projects, including one in Wayne County that has 
served as a part of our research to practice work. They have 
retooled some of the ways they do business to make the program 
more effective. We appreciate their work with us in giving us 
some early research.
    More generally, the Department has subjected all of its 
programs to close scrutiny for evidence of effectiveness and 
duplication, and our early childhood programs are no exception. 
We take seriously the goal of streamlining and consolidating 
our programs wherever possible and we want to avoid the 
potential inefficiencies highlighted by the GAO in its April 
2000 report on early childhood education and care.
    As a result, if the GAO were to update its list today in 
education, early childhood programs, it would number 26, not 
34, after the consolidation or elimination of eight programs on 
the earlier list. Our 2006 budget request would eliminate an 
additional seven programs on GAO's April 2000 list. President 
Bush also has emphasized the importance of coordinating the 
broad array of Federal early childhood programs, both to 
improve efficiency and to encourage parents, early childhood 
educators, and other caregivers to use research-based 
activities to help develop the early language and pre-reading 
skills of young children.
    The goal is to use the findings of scientifically-based 
research, particularly in the area of reading, to strengthen 
the education component of Federal early childhood programs so 
that such programs effectively help prepare children for 
success in school.
    The President's Good Start, Grow Smart initiative created 
an interagency work group involving both the Education and 
Human Services. It has played a critical role, for example, in 
encouraging and helping States to identify voluntary high-
quality early learning guidelines. Nearly all States have 
drafted these guidelines. That committee work group meets 
monthly.
    Last fall, this work group sponsored the second State Early 
Learning Guidelines Roundtable, where 10 of the most 
progressive States shared their experiences implementing early 
guidelines and in collaborating across child care, Head Start, 
pre-kindergarten, and early childhood education partners.
    Good Start, Grow Smart also launched the interagency School 
Readiness Consortium, which is investing $40 million in 
research on the effectiveness of early childhood curriculum, 
programs, and interventions in improving readiness for school.
    More recently, Secretary Spellings has stepped up 
interagency collaboration with Secretary Leavitt, with 
assistance from Dr. Reid Lyon, one of the Nation's foremost 
experts on early childhood development and education. Dr. Lyon 
will split his time between both agencies to help strengthen 
Federal early childhood programs.
    I believe we have made considerable progress since the 
publication of the April 2000 GAO report, both at the 
Department of Education and in concert with our fellow 
agencies. We will continue to measure program effectiveness, 
streamline and consolidate programs, require the use of 
scientifically-based research to deliver effective services, 
and work with other agencies to coordinate separate programs 
serving the same population.
    On a personal note, please know that when I was State chief 
in Arkansas, I worked very closely with our State Department of 
Human Services to coordinate preschool programs. It is a very 
important priority to me personally, and my first 
administrative job back in 1972 for 2 years was Director of 
School Food Services, so I have a little bit of a connection 
with the Department of Agriculture.
    Thank you for giving me an opportunity to be with you 
today.
    Senator Alexander. Thank you, Mr. Simon.
    [The prepared statement of Mr. Simon follows:]

                  Prepared Statement of Raymond Simon

    Mr. Chairman and members of the subcommittee, thank you for this 
opportunity to bring you up to date on the Department of Education's 
efforts to improve the quality of early childhood education. From the 
very beginning of his administration, President Bush--with help from 
First Lady Laura Bush--emphasized the importance of education during a 
child's earliest years, based on their understanding of new scientific 
research on brain development and early cognition that suggested a new 
paradigm, one focused on prevention of learning difficulties rather 
than remediation. Since then, we have worked hard to incorporate that 
paradigm into each of the early childhood education programs we 
administer at the Department of Education.
    More recently, Secretary Spellings has stepped up interagency 
collaboration with Secretary Leavitt of the Department of Health and 
Human Services (HHS). Importantly, this collaboration will include the 
insight and leadership of Dr. Reid Lyon, one of the Nation's foremost 
experts on early childhood development and education. As most of you 
know, while at the National Institutes of Health, Dr. Lyon played a key 
role in developing Early Reading First and Reading First, which I 
believe are the first Federal education programs to mandate the use of 
scientifically based research in reading instruction for low-income 
children, both in preschool and in the early elementary grades.
    Five years ago, the Government Accountability Office (GAO) 
completed a report on early education and care that highlighted the 
large number--69 in all--of Federal programs that provided or supported 
education and care for children under age 5. Because of the sheer 
number of these programs, as well as the fact that they were 
administered by no fewer than 9 separate agencies or departments, the 
GAO quite reasonably suggested that the Federal Government might not be 
supporting early childhood education and care in the most efficient and 
effective way possible. The GAO also suggested that performance and 
evaluation data then being collected under the Government Performance 
and Results Act should be used to guide policymakers in making the 
reforms needed to improve the delivery of effective early childhood 
education.
    I believe we have made much progress since the publication of that 
GAO report, both at the Department of Education (ED) and in concert 
with our fellow agencies. Particularly with regard to our own programs, 
we have worked hard to measure program effectiveness, streamline and 
consolidate programs, require the use of scientifically based research 
to deliver effective services, and coordinate separate programs serving 
the same populations.

                           WHITE HOUSE SUMMIT

    In July of 2001, First Lady Laura Bush hosted a White House Summit 
on Early Childhood Cognitive Development as part of her Ready to Read, 
Ready to Learn initiative. This initiative had two broad goals: to 
ensure that all young children are ready to read and learn when they 
enter kindergarten, and to ensure that every classroom has a well-
trained teacher, particularly in high-poverty areas.
    The Summit aimed at supporting these goals by publicizing the 
findings of scientific research into early cognitive development and 
encouraging parents, early childhood educators, and other caregivers to 
use research-based activities to help develop the early language and 
pre-reading skills of young children. This reflected the 
administration's belief that education was not a strong enough 
component of most early childhood programs: that there was little 
connection between preschool activities and what children are required 
to do once they enter school; that few early childhood programs were 
evaluated on the basis of how well they prepared children to succeed in 
school; and that parents, early childhood teachers, and other 
caregivers had little valid information on how to prepare children for 
success in school.

                         GOOD START, GROW SMART

    To help address these problems, in early 2002 President Bush 
launched his Good Start, Grow Smart initiative, which aims to 
strengthen the academic focus of Head Start programs, encourage States 
to develop quality criteria for early childhood programs that are 
aligned with their K-12 academic standards, and expand research into 
effective pre-reading and language curricula and teaching strategies in 
order to provide better information to parents, teachers, and 
caregivers.
    A key achievement of Good Start, Grow Smart was the creation of an 
Interagency Workgroup that includes offices involved in early childhood 
education and care from both ED and HHS. ED participants include my own 
office, which administers the Early Reading First, Title I, Even Start, 
and the Early Childhood Educator Professional Development programs; the 
Office of Special Education Programs, which administers the Individuals 
with Disabilities Education Act (IDEA) Preschool Grants and Grants for 
Infants, Toddlers, and Families programs; and the Institute for 
Education Sciences, which carries out research on early childhood 
education. The Workgroup meets monthly to coordinate Federal efforts to 
support the implementation of Good Start, Grow Smart in States and 
local communities.
    As part of Good Start, Grow Smart, ED developed and published a 
guide for caregivers in early 2002 called Teaching Our Youngest. We 
also collaborated with HHS in hosting regional Early Childhood Educator 
Academies that were designed to assist States in developing voluntary 
high-quality early learning guidelines. Nearly all States have now 
drafted these guidelines. Last fall, the Interagency Workgroup 
sponsored the 2nd State Early Learning Guidelines Roundtable, where 10 
of the most progressive States shared their experiences implementing 
early learning guidelines and collaborating across child care, Head 
Start, Pre-K, and other early childhood education partners.
    Under the research component of Good Start, Grow Smart, ED's 
Institute for Education Sciences is investing significant resources in 
scientific research on early childhood education, including a 
systematic evaluation of preschool curricula based on randomized trials 
and an Early Childhood Longitudinal Study is tracking the experiences 
of children from birth through 5th grade. IES's National Center for 
Education Evaluation also is conducting large-scale randomized trials 
to develop and evaluate the effectiveness of reading instruction.
    Good Start, Grow Smart also launched an interagency early childhood 
research initiative, known as the Interagency School Readiness 
Consortium, which includes ED and HHS and is led by the National 
Institute for Child Health and Human Development. This initiative is 
investing $39.5 million in research on the effectiveness of early 
childhood curricula, programs, and interventions in promoting the range 
of cognitive, social, and behavioral skills necessary for a child's 
successful entry into school. In 2003, the Consortium made 5-year 
grants to 8 institutions across the country to identify the types of 
early childhood programs and interventions that are most effective--
when implemented in public settings, including State pre-kindergarten, 
Head Start, child care, and blended programs--in supporting early 
learning and school readiness, with an emphasis on literacy and social 
competence outcomes.

        ED PROGRAMS: EMPHASIS ON EFFECTIVENESS AND CONSOLIDATION

    Within the Department of Education, we have subjected all of our 
programs to close scrutiny for evidence of effectiveness and 
duplication, and our early childhood programs are no exception. We also 
have sought to employ the findings of scientific research in improving 
the effectiveness of our programs, particularly in the areas of 
cognitive and language development and early reading instruction, key 
priorities for effective early childhood education.
    The GAO report that I mentioned earlier found that the Department 
administered 34 programs providing or supporting early childhood 
education and care. GAO distinguished between programs for which those 
activities are merely allowable and those for which they are a basic 
program purpose, and I believe this distinction is an important one. In 
the interest of expanding flexibility for States and communities, 
Congress has increased the range of allowable activities for many 
programs in recent years, especially for our large State formula grant 
programs. This new flexibility makes a lot of sense, both educationally 
and administratively, and I believe it is somewhat misleading to count 
such expanded authorities as though they were discrete programs. To 
cite just one example, prekindergarten programs are one of no fewer 
than 35 authorized activities under State Grants for Innovative 
Programs, a program specifically designed by Congress to provide 
maximum flexibility for States and school districts. To call such a 
program an early childhood program implies a level of duplication and 
overlap that does not really exist.
    But as I said, we do take seriously the goal of streamlining and 
consolidating our programs wherever possible, and if the GAO were to 
update its list of ED early childhood programs today, it would number 
26 and not 34, after the consolidation or elimination of 8 programs on 
the earlier list. And our 2006 budget request would eliminate an 
additional 7 programs on GAO's April 2000 list.
    One key program that has been targeted for elimination is Even 
Start, a popular family literacy program with laudable goals, but one 
that national evaluations repeatedly have found to be ineffective. The 
key finding is a simple one: the literacy gains of children and adults 
participating in Even Start were no greater than those of non-
participants. We think it makes more sense to direct our energy and 
resources to more promising approaches.

                    KEY ED EARLY CHILDHOOD PROGRAMS

    The Department's Reading First initiative provides the best 
evidence of the President's determination to inject rigor into Federal 
education programs by grounding them in scientifically based research. 
The Reading First State Grants program requires the use of curricula 
reflecting scientifically based reading research to help ensure that 
all students can read on grade level by the end of the third grade. 
Early Reading First is a complementary effort to jump-start this goal 
by infusing research-based pre-reading instruction into existing early 
education programs for disadvantaged children.
    Early Reading First is designed to help provide preschool-aged 
children with cognitive learning opportunities in high-quality language 
and literacy-rich environments in order to enhance pre-reading skills 
and improve school readiness for children from low-income families. 
More specifically, projects provide ongoing professional development 
and materials, services, and activities aimed at fostering oral 
language development, phonological awareness, print awareness, and 
alphabet knowledge. Funded at $104 million in fiscal year 2005, Early 
Reading First currently serves about 28,000 children in 92 projects 
nationwide. Initial performance reports for Early Reading First are 
promising, suggesting that a majority of participants are achieving 
age-appropriate benchmarks on measures of vocabulary and alphabet 
recognition.
    Mr. Chairman, you may know that Tennessee has three Early Reading 
First projects, including one in Wayne County that took part in the 
Department's Preschool Curriculum Evaluation Research Study. In a true 
example of research-to-practice, Wayne County is now using the results 
of that study to better prepare teachers and staff to implement a new 
curriculum. In particular, the project is now providing extensive 
professional development to teachers, paraprofessionals, and 
administrators, including the use of facilitators to provide coaching 
and mentoring to teachers and staff.
    Another program that provides significant support for early 
childhood education--though an often-overlooked one--is Title I, which 
provides preschool services to about 2 percent of participants, or 
about 400,000 children, at an estimated annual cost of about $500 
million. As research increasingly confirms the value of high-quality 
preschool education and its potential for improving later academic 
achievement, the Department is working to provide leadership and 
guidance in helping States and school districts create effective 
preschool programs that develop cognitive and early reading skills and 
contribute to school readiness. Key strategies in this effort are the 
promotion of the scientifically based methods of Early Reading First to 
strengthen Title I preschool programs, and encouraging States and 
school districts to use Title I funding to increase the education 
component of other existing preschool programs.
    Other major ED early childhood programs are those authorized by the 
Individuals with Disabilities Education Act (IDEA). These include 
Special Education Preschool Grants and Grants for Infants and Families. 
The $385 million Preschool Grants program supplements funds provided 
under the IDEA Grants to States program to help States and school 
districts serve about 700,000 children with disabilities ages 3 through 
5, with the goal of ensuring that these children start school ready to 
succeed.
    The Grants for Infants and Families program provides formula grants 
to assist States in implementing a coordinated statewide system of 
early intervention services for children with disabilities, from birth 
to age 2, and their families. This $441 million program will serve an 
estimated 286,000 children with disabilities in fiscal year 2005.

                               CONCLUSION

    In conclusion, the Department of Education continues to play a 
major role, in concert with other Federal agencies, in advancing the 
President's goal of improving the quality of early childhood education 
and care, especially for children most at risk of later failure in 
school. In particular, the Department has taken the lead in promoting 
the use of scientifically based research to improve interventions at 
all levels of education, including interventions that improve school 
readiness skills, such as oral language development, pre-reading 
skills, and social development. We also are committed to measuring 
results, and to using those results--as recommended by the GAO 5 years 
ago--to streamline and consolidate our programs in order to provide 
more efficient delivery of effective early childhood education 
services. I will be happy to take any questions you may have.

    Senator Alexander. Ms. Coler?
    Ms. Coler. Thank you, Mr. Chairman. I am Kate Coler, Deputy 
Under Secretary for Food, Nutrition, and Consumer Services at 
the U.S. Department of Agriculture. I am pleased to be at 
today's hearing to discuss the Federal Government's role in 
providing education and care to children under 6 years old.
    The Food and Nutrition Service is responsible for managing 
15 domestic nutrition assistance programs. Its mission is to 
increase food security and reduce hunger in partnership with 
cooperating organizations by providing children and low-income 
people access to food, a healthful diet, and nutrition 
education in a manner that supports American agriculture and 
inspires the public's confidence.
    The President's budget for fiscal year 2006 demonstrates 
the administration's unwavering commitment to this mission by 
requesting the record level of $59 billion in new budget 
authority to administer our nutrition assistance programs. 
These programs include the Food Stamp Program, which provides 
nutrition assistance to over 25 million low-income people. Over 
50 percent of Food Stamp participants are children. The program 
enables low-income families and individuals to improve their 
diets by increasing food purchasing power using electronic 
benefits that are redeemed at retail grocery stores across the 
country.
    Under the umbrella of the child nutrition programs, which 
includes the National School Lunch Program, the School 
Breakfast Program, the Child and Adult Care Food Program, and 
the Summer Food Service Program, we provide reimbursement to 
State and local governments for nutritious meals and snacks 
served to over 30 million children in schools, child care 
institutions, after school care programs, and adult day care 
centers.
    Additionally, the Special Supplemental Nutrition Program 
for Women, Infants, and Children, also known as WIC, addresses 
the special needs of at-risk low-income pregnant, breast-
feeding, and postpartum women, infants, and children up to 5 
years of age. WIC provides 8 million participants each month 
with supplemental food packages targeted to their dietary needs 
as well as nutrition education and referrals to a range of 
health and social services. These benefits promote a healthy 
pregnancy for mothers and a healthy start for their children.
    Our major goals in administering these programs focus on 
three areas. First, promoting access to and awareness of the 
programs so that all eligible people can participate with 
dignity and respect. Second, building a healthier U.S. with 
nutrition education to support healthy weight and healthful 
behaviors. And third, enhancing the program integrity with 
which our programs are administered.
    In short, Mr. Chairman, these food assistance programs are 
primarily nutrition programs that help participants obtain a 
better diet. They do not overlap with education programs or 
with child care programs. They have a clear purpose and a 
distinct function separate from, but complementary to, the 
goals of targeted education and child care services.
    The Food and Nutrition Service is proud of our efforts to 
coordinate with other Federal agencies to ensure that Federal 
funds are used to maximize benefit delivery. We work closely 
with the Department of Health and Human Services and with the 
Department of Education to ensure that benefits provided under 
child nutrition programs are fully integrated into the Head 
Start and Even Start programs. In fact, the Department of 
Health and Human Services encouraged Head Start centers to 
participate in meal services offered under the Child and Adult 
Care Food Program. By using these funds through CACFP to 
support their food service, Head Start funds that were 
available for nutrition services are then freed up for use for 
other important educational activities.
    Program regulations ensure that children in Head Start and 
Even Start families are automatically eligible for free meals 
when they participate in child nutrition programs.
    We have also worked closely with the Department of 
Education's 21st Century Schools to ensure that these programs 
are aware of snacks that are available through the National 
School Lunch Program.
    All of our programs have a long history of working with our 
counterparts in other agencies to ensure that they complement 
early education efforts.
    In summary, USDA's mission is to provide nutrition 
assistance in a variety of settings, but not to interfere with 
nor duplicate other efforts of Federal and State programs. On 
the contrary, the Food and Nutrition Service programs enable 
these other programs to operate better by making sure that 
young children have access to proper nutrition and are ready to 
learn. Thank you.
    Senator Alexander. Thank you very much.
    [The prepared statement of Ms. Coler follows:]

                    Prepared Statement of Kate Coler

    Thank you, Mr. Chairman. I am Kate Coler, Deputy Under Secretary, 
Food, Nutrition, and Consumer Services (FNCS), U.S. Department of 
Agriculture (USDA).
    I am pleased to be at today's hearing to discuss the Federal 
Government's role in providing education and care to children under 6 
years old. The Food and Nutrition Service (FNS) is responsible for 
managing 15 domestic nutrition assistance programs. Its mission is to 
increase food security and reduce hunger in partnership with 
cooperating organizations by providing children and low-income people 
access to food, a healthful diet, and nutrition education in a manner 
that supports American agriculture and inspires public confidence. The 
President's budget for fiscal Year 2006 demonstrates the 
administration's unwavering commitment to this mission by requesting a 
record level of $59 billion dollars in new budget authority to 
administer the nutrition assistance programs.
    Over the past half-century, beginning with the National School 
Lunch Program (NSLP) in 1946, the Nation has gradually built an array 
of unique nutrition assistance programs designed to help the most 
vulnerable populations meet their food needs. Taken together, the 
current programs form a nationwide safety net supporting low-income 
families and individuals in their efforts to escape food insecurity and 
hunger and achieve healthy, nutritious diets. These programs serve one 
in five Americans over the course of a year.
    The nutrition assistance programs work both individually and in 
concert with one another to improve the Nation's nutrition and health 
by improving the diets of children and low-income households. These 
programs are based on the USDA and Department of Health and Human 
Services Dietary Guidelines for Americans, which are revised every 5 
years to ensure Federal nutrition policy is based on current scientific 
and medical knowledge. Among the programs administered by FNS are:

    <bullet> The Food Stamp Program (FSP): Authorized by the Food Stamp 
Act of 1977, the FSP serves as the centerpiece and primary source of 
nutrition assistance for over 25 million Iow-income people. It enables 
participants, over 50 percent of whom are children, to improve their 
diets by increasing food purchasing power using benefits that are 
redeemed at retail grocery stores across the country. State agencies 
are responsible for the administration of the program according to 
national eligibility and benefit standards set by Federal law and 
regulations. Benefits are 100 percent Federally-financed, while 
administrative costs are shared between the Federal and State 
governments. The FSP provides the basic nutrition assistance benefit 
for low-income people in the United States while the other FNS programs 
supplement the program with benefits targeted to special populations, 
dietary needs, and delivery settings.
    <bullet> Child Nutrition Programs (CNP): The NSLP, School Breakfast 
(SBP), Special Milk (SM), Child and Adult Care Food (CACFP), and Summer 
Food Service (SFSP) Programs provide reimbursement to State and local 
governments for nutritious meals and snacks served to over 30 million 
children in schools, child care institutions, after-school care 
programs, and adult day care centers. FNS provides cash reimbursement 
and commodities on a per-meal basis to offset the cost of food service 
at the local level as well as offset a significant portion of State and 
local administrative expense and provides training, technical 
assistance, and nutrition education. Reimbursements are substantially 
higher for meals served free or at a reduced price to children from 
low-income families.
    <bullet> Special Supplemental Nutrition Program for Women, Infants, 
and Children (WIC): WIC addresses the special needs of at-risk, low-
income pregnant, breast-feeding, and postpartum women, infants, and 
children up to 5 years of age. It provides 8 million participants 
monthly with supplemental food packages targeted to their dietary 
needs, nutrition education, and referrals to a range of health and 
social services; benefits that promote a healthy pregnancy for mothers 
and a healthy start for their children. Appropriated funds are provided 
to States for food packages and nutrition services and administration 
for the program.
    <bullet> The Commodity Supplemental Food Program (CSFP): This 
program provides food purchased by USDA to low-income infants and 
children up to age 6, low-income pregnant, postpartum and breastfeeding 
women, and to low-income senior citizens who are residing in approved 
project areas. In recent years, there has been a shift towards low-
income elderly in this program; in fiscal year 2004, elderly 
participation comprised more than 88 percent of total participation.

    Federal nutrition assistance programs operate as partnerships 
between FNS and State agencies and local organizations that interact 
directly with program participants. States voluntarily enter into 
agreements with the Federal Government to operate programs according to 
Federal standards in exchange for program funds that cover benefit 
costs, as well as a significant portion of administrative expenses.
    Under these agreements, FNS is responsible for implementing 
statutory requirements that set national program standards for 
eligibility and benefits, providing Federal funding to State agencies 
and local partners, and monitoring and evaluating to make sure that 
program structure and policies are properly implemented and effective 
in meeting program missions. State agencies and local organizations are 
responsible for delivering benefits efficiently, effectively, and in a 
manner consistent with national requirements.
    Our major goals in administering these programs are:

    1. promoting access to and awareness of the programs so that 
eligible people can participate with dignity and respect;
    2. building a HealthierUS with nutrition education and promotion to 
support healthy weight and healthful behaviors; and
    3. enhancing the integrity with which our programs are 
administered.

    In short, Mr. Chairman, these food assistance programs are 
primarily nutrition programs, helping participants obtain a better 
diet. They do not overlap with the education programs or with child 
care programs. They have a clear purpose and distinct function separate 
from, but complementary to, the goals of targeted education programs 
and general grants to provide child care services.
    One program in particular that interfaces well with other programs 
that aid early childhood development is the Child and Adult Care Food 
Program (CAFCP). CACFP plays a vital role in improving the quality of 
day care and making it more affordable for many low-income families. 
Each day, 2.9 million children receive nutritious meals and snacks 
through CACFP. CACFP reaches even further to provide meals to children 
residing in homeless shelters, and snacks and suppers to youths 
participating in eligible after-school care programs.
    I would like to explain how the CACFP works. FNS administers CACFP 
through grants to States. The program is administered within most 
States by the State educational agency. In a few States, it is 
administered by an alternate agency, such as the State health or social 
services department; and in Virginia, it is directly administered by 
the FNS Mid-Atlantic Regional Office. The child care component and the 
adult day care component of CACFP may be administered by different 
agencies within a State, at the discretion of the Governor.
    Independent centers and sponsoring organizations enter into 
agreements with their administering State agencies to assume 
administrative and financial responsibility for CACFP operations. CACFP 
reimbursements pay for nutritious meals and snacks served to eligible 
children and adults who are enrolled for care at participating child 
care centers, day care homes, and adult day care centers.
    Eligible public or private nonprofit child care centers, outside-
school-hours care centers, Head Start programs, and other institutions 
which are licensed or approved to provide day care services may 
participate in CACFP, independently or as sponsored centers. Meals 
served to children are reimbursed at rates based upon a child's 
eligibility for free, reduced price, or paid meals. Under certain 
rules, for-profit centers may also qualify for this program.
    When many people think of ``day care'' they envision the day care 
center, in a more formalized setting than a neighbor's home. However, a 
significant portion of the meals reimbursed in the CACFP are in fact 
provided by Family Day Care Homes. Let me speak for a moment about how 
this part of the program works.
    A family or group day care home must sign an agreement with a 
sponsoring organization to participate in CACFP. Day care homes must be 
licensed or approved by appropriate State agencies to provide day care 
services. Reimbursement for meals served in day care homes is based 
upon eligibility criteria established in statute.
    The reason I have provided this background is to point out that the 
grants for this program are not education programs per se nor are they 
grants to provide child care. However, we do work with our State 
partners and our Federal partners to make sure that the nutrition 
programs work together with other resources to provide the best 
environment possible for young children in day-care settings.
    The Food and Nutrition Service is proud of our efforts to 
coordinate with other Federal agencies to ensure that Federal funds are 
used to maximize benefit delivery. We have worked closely with the 
Department of Health and Human Services (DHHS) and the Department of 
Education (DOE) to ensure that the benefits provided under the Child 
Nutrition Programs are fully integrated into the Head Start Program and 
the Even Start Program. In fact, Head Start notified Head Start centers 
of the advisability of participating in the meal services offered under 
Child and Adult Care Food Program (CACFP). By using CACFP funds to 
support their food service, Head Start funds that were available for 
food service are freed for use in important educational activities. 
Program regulations ensure that children in Head Start and Even Start 
families are automatically eligible for free meals when they 
participate in the Child Nutrition Programs. We have worked closely 
with the Department of Education's 21st century schools to ensure that 
these programs are aware of the snack service available under the 
National School Lunch Program. All of our programs, including the WIC 
Program, have a long history of working with our counterparts in other 
agencies to ensure that the nutritional assistance offered through the 
Food and Nutrition Service complements their early education efforts.
    In summary, the FNS mission is to provide nutrition assistance in a 
variety of settings, but not to interfere with nor duplicate the 
efforts of other Federal and State programs that provide education or 
child care services. On the contrary, FNS programs enable other 
programs to operate better by making sure that young children have 
access to proper nutrition and are ready to learn. This concludes my 
prepared remarks. I would be happy to answer any questions you might 
have at this time.

    Senator Alexander. Now we have some time for questions, and 
I will take 5 minutes and then go to Senator Dodd and Senator 
Enzi, if that is agreeable.
    Mr. Horn, both the Department of Health and Human Services 
and the Department of Education provide professional 
development opportunities for teachers, teacher training. Do 
your agencies work together to provide training for early 
childhood educators? When you provide training for Head Start 
teachers, for example, in your Department, do you ever inform 
the Department of Education about the training opportunity for 
preschool teachers?
    Mr. Horn. Senator, as you know, one of the most important 
components of the President's Good Start, Grow Smart initiative 
is to enhance professional development of caregivers in the 
early childhood arena, be those caregivers parents, Head Start 
teachers, pre-K teachers, or child care providers, and we have 
been working aggressively with the Department of Education to 
ensure that we coordinate our efforts and we do make available 
training opportunities across a variety of different caregiver 
categories.
    So, for example, when we did our early literacy training of 
Head Start teachers, we opened up that training to child care 
providers, as well. So we are committed to trying to have a 
more integrated professional development and training capacity.
    Senator Alexander. Mr. Simon, do you have any comment on 
that?
    Mr. Simon. Yes, sir. I would just certainly second what he 
had to say, plus we have conducted--the Department has become 
more aggressive in direct outreach to teachers through what we 
call our Teacher-to-Teacher Initiative. Early childhood 
education is one of the components of that initiative. We have 
featured programs specifically dealing with early childhood 
issues at our Teacher-to-Teacher summits and included on our 
web broadcasts. So we, too, are beginning to focus somewhat 
more. Also, within title I, we are beginning to encourage 
States to look at their title I funds and also their title II 
funds that are used for teacher training to include preschool 
instruction in that area, too.
    Senator Alexander. Teachers in preschool programs, I 
believe, according to guidance from the Department of 
Education, don't need to meet the highly qualified teacher 
standard of No Child Left Behind in most instances, is that 
correct?
    Mr. Simon. Yes, sir, it is. The only requirement would be 
if a State, and I believe there are only two that I am aware 
of, Texas and Oklahoma, that include pre-kindergarten teachers 
as part of their typical K-12 system. They would be required to 
include that, but the other States would not.
    Senator Alexander. Now, a school district might spend part 
of its title I money on preschool education, but that would not 
mean that the No Child Left Behind highly qualified teacher 
requirements applied to its preschool program, is that correct?
    Mr. Simon. That is correct, yes.
    Senator Alexander. We will be reauthorizing Head Start in 
the next few months, we hope, and one of the things we are 
discussing is whether to require that all Head Start teachers 
have bachelor degrees. We have to try to take into account the 
differences that exist in many parts of the country and not 
produce unreasonable requirements. Do any of you have any 
advice for us about what should be done in the Head Start 
legislation about qualifications for preschool educators?
    Mr. Horn. I have an opinion on that subject, Senator. There 
are two competing goods or values when it comes to 
credentialing of Head Start teachers, and I think it is 
important for us to find an appropriate balance.
    The one is to ensure that we have well-trained teachers in 
every Head Start classroom who can deliver quality services, 
and we are committed to doing that. One way to try to get there 
is to require a certain level of credentialing, and we have 
worked very hard at helping teachers in Head Start get that 
credentialing. In fact, about a third of all Head Start 
teachers today have a bachelor's degree.
    But there is another value, and that value has to do with 
working with the community and helping to develop people within 
that community, to nurture them and have them develop skills 
that become marketable. And one way Head Start has historically 
done that is by working with individuals, sometimes parents of 
current or former kids in Head Start, maybe bringing them in as 
a teacher's aide and training them up and eventually getting 
them to the point where they have the skills to be a quality 
Head Start classroom teacher.
    My fear is that if we made that a specific credential, that 
is too high, that Head Start will lose that capacity or at 
least compromise it, because if you are faced with a choice, 
you have got to hire a teacher and you are looking on the one 
hand at somebody who is from the local community who is going 
to take years to nurture to get to the point where they are 
well-trained enough to be a good quality Head Start classroom 
teacher or hiring a 22-year-old kid fresh out of college but 
has a bachelor's, it is easier to go to the latter.
    So I think that while all of us are committed to having 
quality teachers in Head Start, there is a balance here that we 
need to achieve. I think we have that balance in the sense that 
there is a clear direction in the current statute to move 
teachers toward credentials, but I am afraid that if we have an 
entry-level mandated credential at too high a level, we are 
going to lose that ability of nurturing individuals from that 
community.
    Senator Alexander. Thank you very much. Mr. Simon, do you 
have anything to add to that?
    Mr. Simon. I would just say, I think, true, we need to be 
sensitive to the issues that Mr. Horn has raised, and as far as 
our Department is concerned, we have increased our 
conversations with his office, with his Department, especially 
through our title I office to work to get better content 
knowledge available to the teachers of the Head Start children. 
We believe that is a very important skill, knowing the content 
you teach, and that would be a very important thing for us. And 
again, we are working with them to try to help get some of that 
information to the teachers that are there now.
    Senator Alexander. Senator Dodd?
    Senator Dodd. Thank you, Mr. Chairman, and I thank our 
witnesses again for their testimony.
    Let me, if I can, Dr. Horn, on the first page of your 
testimony, at the very bottom of it here, you talk about the 
amount of funds that are available for child care and related 
services for children. To quote it here, you say, ``When TANF 
funds are concerned, as well as other State and Federal funding 
sources, over $11 billion currently is available for child care 
and related services for children,'' and that it will provide 
assistance for some 2.2 million children. That is absolutely 
accurate. Your numbers are good. I am not questioning your 
numbers at all.
    My concern is that reading that number, it sounds like we 
are awash in child care funding across the country. Eleven 
billion is a lot of money, and I am not suggesting it is not. 
But the impression one could be left with is that the problem 
isn't adequate resources.
    I just wanted to put it in context, if I could, into some 
perspective, because what we have seen is child care funds over 
the last 4 years, of course, have been frozen. We have had no 
increase in the CCDBG program, the Child Care Development Block 
Grant program, which Senator Hatch and I authored some 20 years 
ago now. We have also seen a decline of some, I think it is 
around $500 million in TANF funds. Then you combine that with 
what is happening in States across the country. I think New 
Mexico may be the exception, but most States have huge 
deficits. I know mine does. I think most States do. They have 
wrestled with that over the last few years.
    So we have seen a declining ability on the part of States 
to meet obligations, and as a result of that, we have seen, as 
I mentioned in my opening comments, reduced income eligibility 
for qualifying families, frozen reimbursement rates in many 
States, or subsidy rates for providers serving low-income 
families, increased parent co-pays, and reduced or eliminated 
funding for quality improvements.
    Not every State keeps data. Most do. About half do. But I 
am going to put this up just for the purposes of people seeing 
this. As of today, there are some 600,000 children on waiting 
lists to get into child care. Just to go over these numbers, I 
was looking down the chart, and I will let my colleagues take a 
look at this, but every little figure of a child represents 
2,000 children. As I say, a lot of States don't even keep data 
in this area, just don't bother, but to give you an idea, the 
biggest cases, California, 280,000 on a waiting list in 
California. In my State, 15,000. In the chairman's State, 
20,000. I don't have a number for Wyoming. Wyoming may not be a 
State that keeps that, or maybe there isn't a waiting list. 
Some are very small. Arizona, or I guess Arkansas has 1,300, 
relatively small. In the District of Columbia, 1,400. In Maine, 
1,800. But Texas, 26,000. Florida, 48,000. Georgia, 30,000. So 
you have a very high number of eligible children that are not 
getting the services.
    So I am not arguing with your number at all. Just if you 
say the number, it can sound like there is no additional need 
out there, yet between what is happening in States and what we 
are doing here, what is happening at the national level, I 
think we are--so my question, I guess, to you is how do we 
improve the quality of child care as well as retain the current 
number of children, the 2.2 million you talked about here, 
without additional resources, I guess is the question I have.
    Mr. Horn. Well, first of all, the $11 billion I cited in my 
testimony, I want to clarify, actually doesn't include Head 
Start funds, and so when you add Head Start, you are actually 
up to almost $18.5 billion, and that is a big number. But I am 
not here to suggest that every single person who would like to 
have a subsidy gets the subsidy for child care.
    When it comes to waiting lists, to a large extent, waiting 
lists are a reflection of decisions that States make within the 
flexibilities provided under the Child Care Development Block 
Grant----
    Senator Dodd. You are not considering Head Start to be a 
child care program, are you?
    Mr. Horn. Well, if a child is in full-day, full-year Head 
Start, they can't simultaneously have child care.
    Senator Dodd. But aren't most Head Start programs part-day, 
the majority?
    Mr. Horn. The best information we have suggests about 
half--and this is from the parents themselves--half the parents 
say they are in need of a full-day, full-year experience.
    Senator Dodd. I know that. I am not questioning that.
    Mr. Horn. And half of those get that directly on-site at 
the Head Start program. So a quarter of the--a half don't need 
full-day, full-year, according to their parents. The half that 
do, half of those get it through Head Start directly. The other 
half get it through certain wrap-around arrangements. They 
might go to another child care center. They might go home to a 
parent. They might go home to a family day care provider. There 
is not a lot of evidence that within the Head Start-served 
population that there is an inability to provide full-day care 
and some arrangement for kids who are enrolled. But, of course, 
that doesn't count kids whose parents don't try to enroll their 
kids in Head Start because their Head Start didn't serve their 
needs. But certainly child care can.
    So when it comes to waiting lists and child care, it often 
reflects decision making at the State level about priorities. 
For example, as you know, the Child Care Development Fund 
allows subsidies to be given to parents who are at 85 percent 
of the median State income. In your State, Connecticut, that is 
about $50,000. Now, if States choose to go all the way up to 85 
percent of State median income, they not only include a higher 
population, but it is less well-targeted to the low-income 
population.
    So I am not here to suggest that this system is flush in 
money, but I am here to suggest that, to some extent, waiting 
lists do reflect priorities set within the flexibility given to 
them by the Child Care Development Fund, and I also do believe 
that there is an under-enrollment problem in Head Start that is 
at least partly explained by lack of coordination with State 
pre-K programs and child care programs.
    Senator Dodd. Let me get to that, because that is my second 
question, if I--let me ask just one more, if I can, and that is 
in your testimony, you talk about the Ohio example and our 
colleague, Senator Voinovich, when he was Governor. I would 
argue we had maybe the best child care-Head Start programs in 
the country. They really were very creative and very 
imaginative. You mention here that States are taking the 
initiative to advance the coordination efforts, as well. You 
cite Ohio as an example, currently launched the Early Learning 
Initiative.
    But then I read what has happened in Ohio with a story last 
week, or last month, rather, in the Columbus Dispatch and the 
article points out since Governor Taft, revamping the State-
funded Head Start program, enrollment has fallen from 18,000 to 
6,500 in that State. Half of Ohio's 88 counties have dropped 
their programs, unable to meet the new requirements set by the 
Governor in his program.
    Are you familiar with what has happened there? When you are 
citing Ohio, I am just curious, are you familiar with this?
    Mr. Horn. Obviously, what States do with State funds, I 
don't dictate how they use State funds. But one of the 
difficulties is that because Head Start is a direct Federal-to-
local grant program without any involvement by the State, and 
child care funds go directly to the State and then are 
delivered to local agencies who then are accountable to the 
Federal Government, and State funds go directly from the State 
to local agencies, they are not well coordinated and that can 
result in difficulties.
    Senator Dodd. But you cite the Ohio example as a good 
example of what has happened----
    Mr. Horn. I think that----
    Senator Dodd. If you go from 18,000 to 6,500, half of the 
counties in the State are dropping the program, something is 
wrong.
    Mr. Horn. Well, as I say, they have got shifting, or 
different priorities, but they are, in fact, trying to 
integrate better their State pre-K programs, their child care 
programs, and Head Start in a way that makes sense in their 
State.
    Senator Dodd. I understand that, but if you are losing--my 
point is made. I thank you.
    Senator Alexander. Senator Enzi?
    The Chairman. Thank you, Mr. Chairman, and again, I 
appreciate your bringing the three different agencies together 
that provide the expertise in these child care programs.
    I was remembering back to when I was Mayor of Gilette. The 
President at that time decided that there ought to be some 
coordination between the Department of Interior and the 
Department of Energy, and since Gilette, WY, is the energy 
capital of the Nation--it sits over a coal deposit that has 
more BTUs of energy than all of the Middle East--I was invited 
back to testify. I knew that the purpose was to be able to 
coordinate programs between these two agencies, and when I 
finished testifying, I actually asked the two under secretaries 
how they were going to coordinate that and was a little 
disappointed to have one of the secretaries say, ``Well, I 
don't know about him, but my report is going to be in on 
time.''
    [Laughter.]
    I am kind of interested in how you work together to compare 
programs and see what kind of consolidation can be done. Is 
there any effort underway that way?
    Mr. Simon. One of the efforts is a monthly meeting with 
this interagency work group between the Department of Education 
and the Department of Health and Human Services and they meet 
on a very regular basis. Our Secretary Spellings now has taken 
to a new level, a Secretary-level engagement with the new 
Secretary Leavitt and Secretary Johanns.
    Plus, our own Department within our own agency is being 
reconfigured to give more emphasis, to give more focus to 
particularly K-12 initiatives. We look forward again, with Dr. 
Lyon coming on board, working with the Department of Education 
and the Department of Human Services specifically in the role 
of coordinating preschool. Those are a few things that we are 
doing right now.
    The Chairman. Thanks. Mr. Horn?
    Mr. Horn. Someone once cynically described coordination in 
the Federal Government as an unnatural act between 
nonconsenting adults.
    [Laughter.]
    I think, however, that the work which the Federal 
interagency Good Start, Grow Smart work group really belies 
that cynicism. I think it has done extraordinary work over the 
last 2, 3 years in really focusing a common vision across two 
Departments. We have been sharing resources. We have been 
holding joint conferences. We have been doing joint training. 
And as Mr. Simon says, we have been holding, at a staff level, 
monthly meetings.
    So I think that we are, in fact, doing a pretty good job of 
coordinating across the Departments. We have also done a good 
job, I think, of coordinating with the Department of 
Agriculture and particularly in regard to the distribution of 
parent booklets through the Healthy Start, Grow Smart 
initiative in which parents, particularly low-income parents, 
get a booklet a month for the first 12 months of a child's life 
that describes child development, what they can do to help 
their child.
    So I think we have been trying as best we can to better 
coordinate across three Departments.
    The Chairman. Thank you. I am very encouraged by that. Did 
you wish to comment on that?
    Ms. Coler. I would just like to add that we rely on our 
Federal partner agencies often to reach eligible populations 
where we serve similar populations who are participating or 
eligible to participate in a number of programs. Most recently, 
we are working with the Department of Education and State 
Departments of Education to share information about children 
who are eligible for free and reduced-price meals and children 
who participate in the Food Stamp program, to share that 
information to make sure eligible kids are receiving the 
benefits they are entitled to.
    The Chairman. Thank you. I have also been a strong 
supporter of the Government Performance and Results Act. In 
order to meet the goals of that act, the administration has 
been using the PART assessment to evaluate programs. How 
successful is the PART assessment at determining whether or not 
programs are duplicative and how can Congress support efforts 
to ensure reviews that the PART take that would make a 
difference? What can we do?
    Mr. Simon. Speaking from the Department of Education, we do 
utilize the PART process very rigorously. In fact, many of our 
budget recommendations this year have been based upon PART 
results.
    As you know, one of the requirements, one of the specific 
questions that the PART review asks is, is the program designed 
to be nonredundant or overlapping with another program within 
the same agency or across agencies? So we look at that very 
closely.
    One of the problems we have in trying to answer that 
specific question on some of our programs is it is very 
difficult to tell, particularly when you go out to school 
districts where the Federal Government's share of funding is 
only about 8 percent. In some cases, the program might be 
totally federally funded. In others, the Federal share might be 
very small. So is that a redundancy or is it not?
    So there are a few quirks, I guess, in the PART process, 
but overall, we are very pleased with it. I don't know of 
anything else that we could say to do to improve it, to be 
honest with you.
    Mr. Horn. And I also am very supportive of the PART 
process, and I have had programs that have scored high and 
programs that have scored low in the PART process. I think that 
it has been very helpful, for example, in focusing our 
attention on erroneous payments and developing initiatives to 
try to assess and reduce erroneous payments in the various 
programs.
    But I don't think the PART process was meant to look across 
programs to how well they are coordinated with each other. You 
kind of--you take the program and you examine it on the various 
components of the PART process, and this is where I think that 
the President's interest in using both the Head Start 
reauthorization and welfare reauthorization to provide tools 
for States to better integrate programs at the State and local 
level is so important.
    And so I do think it is important that this committee, and 
I know you are, seriously consider including in Head Start 
authorization the ability for States to have some ability to 
better coordinate their pre-K programs with Head Start and 
child care. They just--right now, basically, unless a Head 
Start program wants to coordinate with a Governor, they don't 
have to. There is no requirement for them to do that. And we 
think that a program that touches so many citizens within a 
State, the Governor ought to have some say in what happens in 
that program and at least some levers to be able to get 
coordination across these various programs that serve similar 
populations.
    And the same is true for welfare reauthorization with the 
now famously-dubbed ``super-waiver'' proposal, which is a way 
to help States to better align different programs so that we 
can create what all of us have been after for the last 20 
years, which is a seamless system of services for low-income 
families. And you can't do that when you have so many programs 
that are so categorical, that go to States in different ways, 
some of which, like Head Start, have no State involvement 
whatsoever, that have different reporting requirements, 
different eligibility requirements, different information 
technology requirements.
    I mean, if we want a seamless system of services, we have 
to give States the tools to get there, and just simply talking 
about coordination is not enough. It seems to us we need to do 
something in the context of reauthorization of Head Start and 
welfare that will allow States to get there.
    The Chairman. Thank you very much. My time has expired.
    Senator Alexander. Thank you. That is a very interesting 
discussion, and let me continue a little bit and from the point 
of view of somebody who has been accused of never having gotten 
over having been a Governor.
    Of course, there is another way to do that, which would be 
instead of giving the money to States, is to not involve them 
at all and make them both federally-run programs. Twenty years 
ago, I suggested to President Reagan that Medicaid should be 
wholly run by the Federal Government. I didn't see how the 
States could run a program that the Federal Government sets the 
eligibility standards for, denies flexibility to Governors for, 
and the courts then get involved and try to run it, too. So 
looking back, that would have been a good idea.
    And one of the complications we have, we see with the No 
Child Left Behind, for example, we have an intention here, for 
example, more professional development, and I believe my 
figures are about right. I think in Tennessee, for example, 
there is a $50 million annual budget item for professional 
development for Tennessee teachers so they can become more 
highly qualified. That is a lot of money. I mean, we hear a lot 
of complaints, there is no money in No Child Left Behind. Well, 
that is about $800 or $900 for every single Tennessee teacher. 
If you just take it and give it to them, that is a big pay 
raise if they got the money.
    But they didn't get the money because we gave States the 
flexibility to deal with it and the States are strapped. 
Senator Dodd mentioned that. So maybe the State says, well, we 
want to reduce class size, and so the money ends up over there. 
So someone comes to see us and says, you are underfunding No 
Child Left Behind because there is no money for professional 
development.
    I am just thinking out loud here. I agree with you that if 
we look at these Federal programs that affect children under 
the age of 6 and that are so huge, I mean, Head Start is $7 
billion, child care is $8 billion, something like that, is that 
about right?
    Mr. Horn. Four-point-eight in Federal dollars.
    Senator Alexander. Four-point-eight in Federal dollars, but 
if you include TANF and child care together, it is $4.8?
    Mr. Horn. When you include TANF----
    Senator Alexander. It would be more like----
    Mr. Horn. When you include CCDF, TANF, and SSPG money, it 
is about $8.4.
    Senator Alexander. About eight. So we are talking big 
bucks. And Senator Dodd also said something about child care. 
Eighteen years ago, I helped to start a company to provide 
worksite day care with a fellow named Bob Keeshan, who was 
Captain Kangaroo, and he said, ``Don't ever say child care or 
day care,'' he said. ``We say child development.'' And 
increasingly, even in child care programs, we are talking about 
child development. And increasingly in Head Start, we are 
talking not just about a place for children to go, we are 
talking about cognitive learning. So increasingly, we are 
talking about giving parents more options, choices of places to 
go to get child development, whether it is through the vouchers 
that are for child care or Head Start programs which are 
autonomous.
    Let me ask you a question then about this sort of ramble. 
At a meeting of chief State school officers just now where 
there is considerable sympathy for the administration's 
position, which is that States--to make these programs 
coordinate, States have to be more involved some way.
    One of the suggestions by a chief State school officer from 
South Carolina was that a step toward that would be to have 
training grants from the Department of Education or HHS to 
State boards of education for preschool teachers. In other 
words, let the States have some money to work with preschool 
and child care teachers to help improve their training and 
capability and that would be one way of getting the State more 
involved as a coordinator of better services for children under 
6. Is that going on, or what do you think of that proposal, 
either, any of you?
    Mr. Simon. States now have the right to utilize title I 
funds for preschool activities. They also, the title II 
professional development funds, there is some $5 billion in the 
current budget for teacher-related services. I believe that 
those can be used for preschool, and then certainly our 
Teacher-to-Teacher. As I indicated, we have expanded our 
Teacher-to-Teacher workshops to include preschool reading, 
preschool math type of activities for teachers so that they 
really understand what it is the children need to know and how 
to better coordinate that with----
    Senator Alexander. If you will excuse me, I will follow 
this and then we will take--does this ever include Head Start 
teachers?
    Mr. Simon. Sir, I would have to check that. I am not sure.
    Senator Alexander. Would that be something that we should 
consider or that your working group should consider, is 
involving--I have one example of, I think Rutherford County 
in--well, Charlotte Menklenberg uses lots of its No Child Left 
Behind money in preschool, as I understand. The theory is, if 
the children arrive better ready to learn, they will do better 
on the annual yearly test.
    Mr. Simon. Right, and I know a number of our grants that we 
give do, in fact, require cooperation, participation of Head 
Start in those grants. Early Reading First, for example, 
requires participation--or if a Head Start program is there, 
that they must be a part of that. If Head Start is not there, 
then other public or private providers are eligible, and that 
same thing is true with a number of our other grants. I am just 
not sure about the title II moneys.
    Senator Alexander. Dr. Horn?
    Mr. Horn. And I am not sure of that, either, in terms of 
the use of title II moneys. But it is something that I think is 
a good suggestion----
    Senator Alexander. But in terms of training for Head Start 
teachers, would you have any--the objective of getting States 
more involved, finding different ways for the Governor to get 
more involved with the Head Start programs so the programs can 
be better coordinated with teacher training programs 
administered by the Governor or additional Federal dollars for 
that to be useful, or does it sound like enough is already 
being done there?
    Mr. Horn. Well, we believe that there is plenty of training 
and technical assistance money in Head Start, but that is a 
separate issue as to whether or not joint or cross-training of 
different early child care providers would be a good thing. I 
think it would be a good thing. I think we are trying to move 
in that direction.
    As I noted in my testimony, one of the things that we have 
done in the Child Care Development Fund program is the State 
plans that are required to be submitted. We have asked that 
States submit sort of a Good Start, Grow Smart section that 
concentrates on, first of all, what they have been doing to 
develop early learning guidelines, second, what they are doing 
to develop sort of coordinated professional development 
systems. And about 29 States now are in the process of 
implementing those Statewide sort of coordinated professional 
development systems.
    So we are making progress in that regard and that will 
help. But at the end of the day, it seems to us that it is 
still going to be important if you have got a child care center 
on one corner, a Head Start center across the street, and a 
State pre-K program on the other corner, that they ought to be 
coordinated in some fashion so they are not fighting all for 
the same kids.
    And I am not suggesting, again, that the system is flush 
with money. What I am saying is that when you are not 
coordinating those three systems, what happens is you get 
pockets where you have too many slots for the kids that are 
available and other areas where you have too few slots, and 
coordination allows you to create greater efficiency. You can 
serve more kids.
    When I came into office, we had a 7 percent under-
enrollment rate in Head Start. That is 62,000 federally-funded 
slots with no child in them. We have reduced that to about 4 
percent now through a variety of administrative actions that we 
have done, but part of the difficulty in eliminating that 
problem is the difficulty in coordinating Head Start with pre-K 
and child care programs the way that we think we ought to do 
and we think that the Governors need to have some say in that. 
However we can move toward that goal is something we would be 
very supportive of.
    Senator Alexander. I will come back to that, but Senator 
Dodd, please take whatever time you want.
    Senator Dodd. Thanks, Mr. Chairman.
    Again, I am not arguing with the idea of how to get more 
efficient and make the system work. I don't disagree with that 
at all. I think we have got to be careful, though, to some 
extent when we start talking about Head Start and child care as 
early child development programs. That is where the similarity 
sort of ends. I mean, those are very different.
    The Child Care Development Block Grant program, I would 
have very much liked to have seen early on that we have 
developmental standards included, but there was no way in the 
world we were going to get that done at the time, even today. 
We have health and safety standards, but that is about it. Any 
effort we made to set additional developmental standards or 
qualities that teachers ought to have and so forth coming in 
was vehemently opposed at the time and has been over the years.
    Head Start, on the other hand, of course, has extensive 
quality standards, some 1,800 requirements, am I correct? I 
think it is about 1,800 requirements to be met. So I presume if 
it is going to be State-run, unless there are some of those you 
are going to get rid of, we have studied Head Start to death 
over the last number of years in terms of the amount of reviews 
that have been made of the program. So I think it is important 
to kind of--and, in fact, Head Start has far many more 
standards to it than most State pre-K programs, as well.
    So you are right. You go through them on the corner here, 
but they are very different requirements there. So leveling the 
playing field a bit there would be a tremendous help to some 
degree. If we could get more developmental standards in child 
care, it would be something I would like to see. I just don't 
know if you are going to get our colleagues to go along with 
those kind of things because of the resistance.
    Another problem, again with States, and again, Connecticut 
is a very affluent State. We are always right near the top in 
terms of per capita earnings. I always like to quickly point 
out that Hartford, Connecticut, our capital, is listed as the 
poorest city in America, by the way. In a State that is the 
size of San Diego County or Yellowstone National Park, I have 
great affluence. I have significant poverty in that State, as 
well.
    Of course, our system, while there is State support, so 
much of it is dependent on local community resources and we are 
just going--the ability to have supporting things like class 
size and teacher training and all these things we would like to 
do. What is being cut out of my elementary school programs, I 
think 8 percent today--I think I am correct, correct me if I am 
wrong, but only 8 percent of elementary school kids have any 
requirement of physical education today. We are wondering about 
the rise in diabetes and other things and obesity problems and 
so forth. And not because people think it is a bad idea to have 
physical education. There just are not the resources to do all 
that is required.
    And I am glad the chairman raised the No Child Left Behind 
Act because, again, I am a strong supporter of the goals of 
that bill, having been here and part of the decision. I don't 
have any problem with the goals of that. But obviously, the 
reasonableness, and today there is a meeting, in fact, between 
the Secretary of Education and my commissioner to try and see 
if they can't work out some of these issues in terms of how 
often people are tested in our State and the requirements under 
No Child Left Behind. But the pressures are huge on these 
States and the resources there.
    Trying to get the States more involved, it is hard to argue 
with that, but if we are going to get them more involved, we 
have got to be very conscious of the ability to actually step 
up and meet these financial obligations, given where most of 
the resources come from. That is one of my concerns.
    I am not going to sit here and try to suggest to you that 
building more efficiencies into the system is a bad idea. It is 
not at all. We need to be doing that all the time. I just want 
us to carefully do it and understand there are differences and 
different requirements today that we require of Head Start, of 
child care, and State pre-K programs.
    Mr. Horn. May I just remark about something about that?
    Senator Dodd. Sure.
    Mr. Horn. In the President's proposal to allow a limited 
number of States to better coordinate Head Start and pre-K 
programs and child care programs at their option, it is often 
assumed that what will happen is that if there is a difference 
between State standards in a State pre-K program and Head Start 
and if Head Start standards are higher, that this will drive 
the standards of Head Start down.
    What is often overlooked in the President's proposal is 
that we have a requirement that for kids served with Head Start 
funds, those programs must continue to meet or exceed the 
current Head Start standards. We actually believe--so you are 
kind of cementing in the Head Start standards for kids served 
with Head Start funds. We think this is an opportunity where 
there is discrepancy to actually drive up the standards in 
State pre-K programs.
    So far from trying to water down the quality of services to 
kids, we actually think the State option has the potential, 
unproven at this point, to be sure, but the potential to 
actually drive up the quality of State pre-K programs if the 
State pre-K programs are not meeting the same quality standards 
that the Head Start programs are.
    Senator Dodd. That is an interesting observation. I would 
hope you are right. My concern is, and I suspect it may be 
yours, as well, that, again, as we do that, putting in 
requirements cost money, and if it costs money, that is going 
to mean you are going to end up with this problem, and we talk 
about in terms of waiting lists and so forth and who gets into 
these programs. You sort of get burned either way. Do you want 
the quality to go up? If we are not going to be willing to help 
pay those costs and defer that, to some degree, given State 
budgets and the demands on them, it gets harder and your 
population, the eligible population shrinks and you leave an 
awful lot of kids out.
    But you may be right. Look, it turns out that the opposite 
happens, it would be fantastic if that were the case. I just 
worry, the realities being what they are, and knowing what 
Governors and State legislative bodies go through--and good 
people out there. These are not people who are opposed to these 
things. They care about them very much. But, boy, they have got 
an awful lot of demands on them and it is hard to meet those 
obligations.
    Senator Alexander. I recall that I used to bristle a good 
bit when people would say things like, we turned it over to 
you. You are going to all compete to see how bad you can do, 
where that really wasn't the way we looked at it. We competed--
and I served with Bill Clinton and Dick Reilly and Bob Graham 
and we competed to see who could have the best program that we 
could. It was a race to the top, not the bottom.
    But let me pursue this discussion a minute. You have been a 
very effective defender of the President's proposal and I am 
sympathetic to the idea of finding some way to get, maybe the 
President's way, some way of getting the States more involved. 
I think it is useful to think about the three, the Head Start 
center, the preschool program maybe for a 4-year-old on another 
corner, and a day care center across the street. You have got 
Federal dollars and you are spending $7,000 per child at the 
Head Start center, all Federal. You have got a Federal voucher 
that takes you to the child care center. And then you have got 
a preschool program that may include 4-year-olds which is going 
to be funded almost exclusively by State and local dollars.
    One of the things we talked about last year was creating a 
number of Early Childhood Centers of Excellence that would--in 
fact, it was in the Senate bill. It would allow the Governors 
to designate, let us say in Nashville, you take all those 
preschool places, the Head Start centers and the day care 
centers, and the Governor comes forward to Wade Horn and said, 
or your Secretary, and said, ``We want to designate or we want 
to show the world what can happen when we voluntarily--the Head 
Start people, child care parents, and the school systems--work 
together to spend this money better.'' And then the Secretary 
would then designate that as an Early Childhood Center of 
Excellence. There might be additional funds for that, depending 
on what the program was, the State putting in some money, the 
Federal Government putting in some money. We may think of more 
things to add on to it. And then we would see how that went for 
3 or 4 years, and from that we might learn more ways for States 
to solve this problem.
    That seemed to create broader support, at least from the 
Head Start community. They felt less threatened by this 
proposal. It didn't go as far as the President wanted to go in 
terms of his 10-State pilot program. Would you have any comment 
on how we might be able to strengthen the early childhood 
development, Early Childhood Centers of Excellence idea and 
bring it closer to the administration's objectives and still 
find something that we could create a consensus on here within 
the Congress?
    Mr. Horn. Well, first, to state the obvious, I think that 
the present proposal is a good one. I am very supportive of it.
    Senator Alexander. And you have effectively defended it. 
No, I mean that sincerely.
    Mr. Horn. I also think that there are other reasonable 
options to be considered. I am not here to say that there are 
no places where good coordination is happening. I think there 
are. And we can always learn from good exemplary situations in 
order to then disseminate that----
    Senator Dodd. I think you ought to check on that Ohio 
example that you cite here as a great example.
    Mr. Horn. I will check on that.
    Senator Dodd. You might have a better one for us the next 
testimony.
    [Laughter.]
    Mr. Horn. And we actually have an example of us doing this 
in a coordinated way with the Department of Education already, 
and that is with the two State roundtables that we have had 
where we have taken the 10 States that we think are farthest 
along at implementing some of the aspects of Good Start, Grow 
Smart and then using the learnings from those roundtables to 
then determine what the next best training ought to be with the 
rest of the States to bring them along.
    So I think there certainly is value to the idea of finding 
good examples and then having a process to disseminate those. 
But at the end of the day, it still seems to me that Governors 
need some leverage in forcing that coordination, and I would 
suggest that this committee look to the Abbott School 
Districts, so-called Abbott Districts in New Jersey to see a 
situation where that coordination is not happening well and 
where the State is frustrated because that coordination is not 
happening well.
    Senator Alexander. I am going to ask Ms. Coler a question, 
and then we will go for any further questions that Senator Dodd 
has or comments he has, and then I think we will bring the 
hearing to a conclusion.
    Ms. Coler, the Department of Agriculture structure 
providing services to children is a little different than the 
way we do it in kindergarten through the 12th grade. Basically, 
the Federal money--it is more like the way we do it with the 
child care certificate or voucher and less like the way we do 
it with U.S. Department of Education grants to schools. In 
other words, the Department of Agriculture money follows the 
child, it seems to me, to wherever the child is, and then if 
the child is at this place, you pay for that. The Department 
puts the Federal money there.
    Is there anything, as we talk about coordinating these 
three different kinds of buildings on different corners and 
hoping that we serve the children well--anything we can learn 
from the Department of Education model about how it spends its 
money that might apply to this better coordinated system?
    Ms. Coler. Well, our programs, while they are federally 
funded, are State administered, and we want to make sure that 
children, no matter what setting they are receiving through 
early childhood education, whether they are in school or a 
summer food service program, that they have access to that now. 
So while it does follow the child, it is actually administered 
by the State and reimbursement is from the State to the 
provider. But if the children are entitled, we want to make 
sure that they have access to those meals, no matter what 
setting they are in, so----
    Senator Alexander. Senator Dodd, I am very interested to 
see if we can find some ways to allow Governors in areas show 
us what can be done. I mean, I think if I were back in the 
Governor business, and Senator Dodd may not like this, but I 
would probably try to persuade a Head Start center and a school 
district and group of parents to let us operate a whole series 
of programs. Let the parent choose the school, the child care 
service, or the combination that they needed. Attract the 
maximum amount of dollars, such as the Department of 
Agriculture dollars, and let the money follow the children to 
the schools and the services they needed.
    And then looking at where the parents chose to go, which is 
what we do with the child care voucher today. We then could try 
to decide what are the training programs for the teachers in 
the various programs and how can we effectively spend the 
money, because we would have about $7,000 for each Head Start 
child. We would have a range of $2,000, $3,000, $4,000, $5,000 
a year for the child care voucher. The State is probably 
spending more than that for preschool education. So that is 
quite a bit of money that could go into the pot and it would 
bring out the creative imagination, I imagine, of lots of 
Governors and lots of Head Start center directors.
    I am very interested in finding some way that Congress can 
support the President's objective there.
    Senator Dodd?
    Senator Dodd. Thanks, Mr. Chairman. And again, I don't 
think they are contradictory goals. I mean, obviously, getting 
parents involved and trying to be more efficient in how we 
provide these services is critically important, and giving 
parents more involvement. In fact, one of the Head Start 
requirements is parental involvement. We have about 80 percent 
parental involvement with Head Start programs. It drops to less 
than 20 percent by the time the kids are in the first grade 
because we don't require it other places.
    I mean, had it not been--it is kind of easy to talk about 
these requirements that the Federal Government has placed in 
these areas, but I think over the years, we have proved to be 
more right than wrong in setting these standards, and I am not 
sure--looking at child care, we have got virtually none. We 
have better standards for people's pets than we do for children 
in some of these places, other than basic safety standards and 
so forth.
    So it is very easy to sort of attack the Federal Government 
in this area, and obviously Governors feel that way. As a 
former Governor, I know I felt restrained probably in more 
cases than I would care to know. The Federal Government was 
requiring things, and allowing States to be a bit more 
imaginative in how they would provide for their families is 
important.
    And I say this and I mean this very deeply. Unfortunately, 
not every Governor was Lamar Alexander in the country. We had 
people out there who really understood this and cared about 
this stuff and would insist as a Governor that these kids were 
going to have requirements and standards were going to be met, 
and too often, that is not the case.
    And so if we are talking about Federal dollars going back 
out, we want to make sure that these dollars are going to do 
what we want them to do to the extent possible and invite 
creativity and imagination, try to do what we can do to make 
sure these dollars are efficiently used, so we maximize them to 
the extent possible, and that is not easy in doing all of these 
things.
    But I welcome the discussion. I think it is important to 
have it. I don't think anything ought to reach a status that it 
is static and they are not willing to examine how you can do a 
better job all the time.
    The demands are more complicated today. Just what parents 
are going through is so much more, so much more difficult than 
it was 20, 30 years ago, and I think we have got to be 
cognizant of that. It is hard. You are teasing me about being a 
new father with a 6-week-old and a three-and-a-half-year-old, 
who I took to a preschool program this morning and will pick 
her up in about an hour or so from it. She does about 3 days a 
week. She is three-and-a-half. And how lucky we are. I mean, we 
have the resources to be able to do this, although it is 
expensive, I will tell you, and what is available.
    But just pressures on families today, trying to make ends 
meet economically, and look at some of these dollar amounts we 
are talking about and what constitutes a poverty figure if you 
can then qualify for any help. I went down the numbers in some 
of the States and they are just very, very low. I mean, you are 
making $35,000 and you have got three kids and you are no 
longer qualified. You are no longer in poverty. Well, you are 
not maybe poor, you are not poverty stricken, but if you try to 
put food on the table and provide shelter and clothes and also 
educate these kids with $35,000, it is tough. So it is 
important we do this.
    I was just going to ask Ms. Coler about your program. I am 
a strong supporter of these child and adult care food programs. 
I would just like to see even more family day care homes 
participate, if they could, because I think it is a great 
program. It is, again, one of these things where Federal 
dollars can make such a difference. I wonder if you have any 
suggestions on how we could be more effective in outreach 
within communities to achieve that goal.
    Ms. Coler. Working with partners always helps, and we have 
had some experience with the Department of Health and Human 
Services where they from Washington notified all the Head Start 
centers about the advisability of participating in our program, 
not only for the benefit of food that it brings to the child 
who is participating, but it also frees up money for other 
education activities. So with all of our programs, the ACFP, 
Food Stamps, WIC, we are undertaking major outreach efforts to 
try to reach all eligibles and trying to streamline the 
administration so providers will be willing participants, as 
well.
    Senator Dodd. Well, that is great. Thanks for that.
    And again, I thank you, Mr. Chairman, and thank our 
witnesses. I just want to make the point, and Dr. Horn, who is 
very knowledgeable about all these things and I appreciate 
your--we have dealt with each other a lot over the years on 
these questions.
    Again, going back to that issue of the standards, the Head 
Start standards, I mean, as I understood in the law, the word 
is ``generally meet'' the standards. There is not a specific 
requirement that the Head Start standards be met. And I 
understand that getting down too specific maybe, but I was 
looking for maybe a stronger word than ``generally meet.'' It 
seems to me almost to be an invitation to sort of dumb-down the 
system rather than reach up to it. I would hope that we might 
look at that language so that we are driving States, and then 
really keep an eye if this becomes law on what States are doing 
and what costs are associated with meeting those standards and 
what the effects are in terms of serving eligible populations.
    Thank you, Mr. Chairman.
    Senator Alexander. Thank you, Senator Dodd. I believe title 
I dollars used for preschool are required to meet Head Start 
standards. I believe that is also correct.
    This has been a very helpful beginning to our discussion. 
Dr. Horn, Mr. Simon, Ms. Coler, we want to make effective use 
of your time and the Departments' time. I know that you will be 
having an ongoing review of these programs. You have your own 
working group, and we not only don't want to interfere with 
that, we want to encourage that.
    I think what we would like to do here is find an effective 
way to keep up with it, not necessarily through big hearings on 
broad subjects where you repeat what you have already said 
before, but if I could ask you to work with our staff here and 
let us set up a flexible schedule, say, over the next year and 
at two or three different intervals, what I would like to do is 
for us to meet with you again. It might just be an hour's 
discussion around the table. It might be more focused on a 
particular issue.
    You may have a specific proposal you would like--I mean, 
this is an invitation, really. You may have something that you 
think we have been too busy to understand, and while we have 
got a consensus here toward an objective, if you want to get 
our attention toward a specific legislative change, that would 
be a good way to do it, or if we need to put the spotlight on 
something you need done, then that would be a way for us to do 
that, too, or we need to invite some people in who are 
stakeholders and have a general discussion.
    So I would like to use the combination of our interests 
here over the next year to do what we can to spend this money 
as wisely as possible. And, of course, Senator Dodd, it may 
show that some money is not being spent wisely. It may show 
some additional needs that will require more money, and there 
would be no stronger case for additional dollars than a year-
long review that turned that up.
    I thank Senator Dodd for being here and other Senators, and 
I thank each of you for coming, and the meeting is adjourned.
    Senator Dodd. Could I just----
    Senator Alexander. Yes, sure.
    Senator Dodd. I should have mentioned this. There have been 
a lot of groups out there that are doing surveys on this wait 
list issue, and we have asked the Government Accountability 
Office to take a look at this, as well, state-by-state. We 
expect to have some answers back from the GAO around June 
sometime, which may be helpful to throw some light on this 
subject matter.
    Senator Alexander. Good.
    Senator Dodd. I think your point about title I meeting Head 
Start educational component standards is absolutely true, but 
what they don't do is they are not required to meet the 
standards on nutrition and other factors that Head Start 
requires, so there is a difference. Educational performance 
level, but not the others, and that is a gap, clearly, in these 
areas.
    Senator Alexander. If we have additional questions, if we 
may send them to you within the next 2 or 3 days to complete 
our record, we will do that. Thank you for your time.
    The hearing is adjourned.
    [Whereupon, at 11:33 a.m., the subcommittee was adjourned.]

                                    

</pre></body></html>
